<html>
<title> - S. 1696, THE WOMEN'S HEALTH PROTECTION ACT: REMOVING BARRIERS TO CONSTITUTIONALLY PROTECTED REPRODUCTIVE RIGHTS</title>
<body><pre>[Senate Hearing 113-844]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-844

              S. 1696, THE WOMEN'S HEALTH PROTECTION ACT:
                 REMOVING BARRIERS TO CONSTITUTIONALLY
                     PROTECTED REPRODUCTIVE RIGHTS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             JULY 15, 2014

                               ----------                              

                          Serial No. J-113-69

                               ----------                              

         Printed for the use of the Committee on the Judiciary






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                     
























                                                        S. Hrg. 113-844

              S. 1696, THE WOMEN'S HEALTH PROTECTION ACT:
                 REMOVING BARRIERS TO CONSTITUTIONALLY
                     PROTECTED REPRODUCTIVE RIGHTS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 2014

                               __________

                          Serial No. J-113-69

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
         
         
         
         
         
         
         
         
         
                                   

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-962 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
             
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
           Kristine Lucius, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                            C O N T E N T S

                              ----------                              

                       JULY 15, 2014, 10:03 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Blumenthal, Hon. Richard, a U.S. Senator from the State of 
  Connecticut....................................................     1
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California,
    prepared statement...........................................   103
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     2

                               WITNESSES

Witness List.....................................................    39
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..     4
    prepared statement...........................................    40
Black, Hon. Diane, a Representative in Congress from the State of 
  Tennessee......................................................     6
    prepared statement...........................................    42
Blackburn, Hon. Marsha, a Representative in Congress from the 
  State of Tennessee.............................................     9
    prepared statement...........................................    47
Chireau, Monique V., M.D., M.P.H., F.A.C.O.G., Durham, North 
  Carolina.......................................................    14
    prepared statement...........................................    60
Chu, Hon. Judy, a Representative in Congress from the State of 
  California.....................................................     8
    prepared statement...........................................    45
Northup, Nancy, President and Chief Executive Officer, Center for 
  Reproductive Rights, New York, New York........................    12
    prepared statement...........................................    49
Parker, Willie, M.D., Birmingham, Alabama........................    16
    prepared statement...........................................    71
Taylor, Hon. Chris, State Representative, Wisconsin State 
  Legislature, 76th District, Madison, Wisconsin.................    19
    prepared statement...........................................    98
Tobias, Carol, President, National Right to Life Committee, 
  Washington, DC.................................................    18
    prepared statement...........................................    75

                               QUESTIONS

Questions submitted to Dr. Monique V. Chireau by Senator Grassley   116
Questions submitted to Nancy Northup by Senator Blumenthal.......   109
Questions submitted to Nancy Northup by Senator Coons............   106
Questions submitted to Dr. Willie Parker by Senator Blumenthal...   111
Questions submitted to Dr. Willie Parker by Senator Coons........   107
Questions submitted to Hon. Chris Taylor by Senator Blumenthal...   113
Questions submitted to Hon. Chris Taylor by Senator Coons........   108
Questions Submitted to Carol Tobias by Senator Graham............   117
Questions submitted to Carol Tobias by Senator Grassley..........   114

                                ANSWERS

Responses of Dr. Monique V. Chireau to questions submitted by 
  Senator Grassley...............................................   167
Attachment to responses of Dr. Monique V. Chireau to questions 
  submitted by Senator Grassley..................................   174
Responses of Nancy Northup to questions submitted by Senators 
  Coons and Blumenthal...........................................   118
Responses of Dr. Willie Parker to questions submitted by Senators 
  Coons and Blumenthal...........................................   133
Responses of Hon. Chris Taylor to questions submitted by Senators 
  Coons and Blumenthal...........................................   139
Responses of Carol Tobias to questions submitted by Senators 
  Graham and Grassley............................................   144

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

A Critical Mass: Women Celebrating Eucharist et al., July 15, 
  2014, letter...................................................   339
Abortion Care Network, Dallas Schubert, Chair, and Charlotte 
  Taft, Executive Director, statement............................   209
Abortion Care Network et al., July 14, 2014, letter..............   322
Abortion Rights Fund of Western Mass et al., July 22, 2014, 
  letter.........................................................   325
Advocates for Youth, Washington, DC, statement...................   350
American Congress of Obstetricians and Gynecologists (ACOG) et 
  al., July 11, 2014, letter.....................................   239
American Congress of Obstetricians and Gynecologists (ACOG), Hal 
  C. Lawrence III, M.D., F.A.C.O.G., Executive Vice President and 
  Chief Executive Officer, statement.............................   217
American Congress of Obstetricians and Gynecologists (ACOG), Hal 
  C. Lawrence III, M.D., F.A.C.O.G., Executive Vice President and 
  Chief Executive Officer, attachment to statement...............   227
American Journal of Obstetrics & Gynecology, September 2013, 
  article........................................................   202
Americans United for Life (AUL), Washington, DC, statement.......   358
Association of American Physicians & Surgeons, The, et al., July 
  15, 2014, letter...............................................   376
Branstad, Hon. Terry E., Governor of Iowa, and Hon. Kim Reynolds, 
  Lieutenant Governor of Iowa, July 15, 2014, joint letter.......   367
Calhoun, Byron C., M.D., F.A.C.O.G., F.A.C.S., F.A.S.A.M., 
  M.B.A., Professor and Vice Chair, Department of Obstetrics and 
  Gynecology, West Virginia University-Charleston, July 11, 2014, 
  letter.........................................................   374
California-District IX of ACOG et al., July 15, 2014, letter.....   341
Center for Reproductive Rights, Nancy Northup, President and 
  Chief Executive Officer, July 15, 2014, letter.................   238
Concerned Women for America Legislative Action Committee 
  (CWALAC), Penny Young Nance, President and Chief Executive 
  Officer, July 14, 2014, letter.................................   410
Daugherty, Hon. Duffy, New Hampshire House of Representatives, 
  July 15, 2014, letter..........................................   405
Grau, Hon. Randon J., Oklahoma House of Representatives, July 15, 
  2014, letter...................................................   409
Guttmacher Institute, Susan A. Cohen, Acting Vice President for 
  Public Policy, statement.......................................   241
Henneberqer, Melinda, Politics Daily, ``Kermit Gosnell's Pro-
  Ghoice Enablers (Is This What an lndustry That Self-Regulates 
  Looks Like?),'' January 23, 2011, article......................   369
Ibis Reproductive Health, Kelly Blanchard, President; Amanda 
  Dennis, Associate; Kate Grindlay, Senior Project Manager; 
  Daniel Grossman, Vice President for Research; Britt Wahlin, 
  Director of Development and Communications; joint statement....   245
Nanney, Hon. Wendy, South Carolina House of Representatives, et 
  al., July 15, 2014, letter.....................................   379
NARAL Pro-Choice America, Washington, DC, statement..............   256
National Abortion Federation (NAF), Washington, DC, and Abortion 
  Providers in Ohio, Pennsylvania, and Tennessee, statement......   307
National Asian Pacific American Women's Forum (NAPAWF), 
  Washington, DC, statement......................................   355
National Council of Jewish Women (NCJW), Nancy K. Kaufman, Chief 
  Executive Officer, statement...................................   264
National Family Planning & Reproductive Health Association 
  (NFPRHA), Clare Coleman, President and Chief Executive Officer, 
  statement......................................................   352
National Latina Institute for Reproductive Health (NLIRH), 
  Jessica Gonzalez-Rojas, Executive Director, July 21, 2014, 
  letter.........................................................   318
National Latina Institute for Reproductive Health (NLIRH), 
  Jessica Gonzalez-Rojas, statement..............................   332
National Network of Abortion Funds (NNAF), Stephanie Poggi, 
  Executive Director, statement..................................   269
National Partnership for Women & Families, Debra Ness, President; 
  Sarah Lipton-Lubet, Director of Reproductive Health Programs; 
  Melissa Safford, Policy Advocate; statement....................   271
National Women's Health Network, Cynthia A. Pearson, Executive 
  Director, July 13, 2014, letter................................   346
National Women's Health Network, Cynthia A. Pearson, Executive 
  Director, statement............................................   347
National Women's Law Center, Judy Waxman, Vice President for 
  Health and Reproductive Rights, statement......................   276
New York Abortion Access Fund (NYAAF), New York Abortion Access 
  Fund Board of Directors, statement.............................   280
Pence, Hon. Michael R., Governor of Indiana, July 21, 2014, 
  letter.........................................................   368
Perkins, Tony, President, Family Research Council, et al., July 
  14, 2014, letter...............................................   365
Physicians for Reproductive Health, Nancy Stanwood, M.D., M.P.H., 
  Board Chair, statement.........................................   343
Physicians for Reproductive Health, Nancy Stanwood, M.D., M.P.H., 
  Board Chair and Associate Professor of Obstetrics, Gynecology & 
  Reproductive Sciences, Yale University School of Medicine, 
  statement......................................................   289
Planned Parenthood Federation of America and Planned Parenthood 
  Action Fund, Dana Singiser, Vice President of Public Policy and 
  Government Relations, statement................................   286
Planned Parenthood Federation of America and Planned Parenthood 
  Action Fund, Washington, DC, attachment to statement...........   320
Planned Parenthood of Southern New England, New Haven, 
  Connecticut, statement.........................................   236
Preterm Birth Paper Publication List (Exhibit 2), July 11, 2014, 
  list...........................................................   391
Psychological Effects Publication List (Exhibit 1), Bibliography 
  of Peer-Reviewed Studies on Abortion and Psychological Health, 
  July 11, 2014, list............................................   381
Red River Women's Clinic, Tammi Kromenaker, Clinic Director, 
  statement......................................................   295
Reproductive Health Technologies Project (RHTP), Jessica Arons, 
  President and Chief Executive Officer, statement...............   300
Torres, Leah, M.D., M.S., Salt Lake City, Utah, statement........   251
Treat, Hon. Greg, Oklahoma State Senate, July 15, 2014, letter...   407
University of California, San Francisco, School of Medicine, 
  Advancing New Standards in Reproductive Health Program 
  (ANSIRH), Diana Greene Foster, Ph.D., Acting Director and 
  Director of Research, statement................................   232
Weinstein, Dana, Rockville, Maryland, July 14, 2014, letter......   304

                 ADDITIONAL SUBMISSIONS FOR THE RECORD

Submissions for the record not printed due to voluminous nature, 
  previously printed by an agency of the Federal Government, or 
  other criteria
  determined by the Committee, list:.............................   411

Case files documented August 19, 2011:
    http://www.cruz.senate.gov/files/documents/
      20141218_Stories.pdf.......................................   411

 
                      S. 1696, THE WOMEN'S HEALTH
                        PROTECTION ACT: REMOVING
                      BARRIERS TO CONSTITUTIONALLY
                     PROTECTED REPRODUCTIVE RIGHTS

                              ----------                              


                         TUESDAY, JULY 15, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in
Room SD-226, Dirksen Senate Office Building, Hon. Richard 
Blumenthal, presiding.
    Present: Senators Blumenthal, Klobuchar, Franken, Coons, 
Hirono, Grassley, Hatch, Graham, Lee, and Cruz.

         OPENING STATEMENT OF HON. RICHARD BLUMENTHAL,
          A U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Blumenthal. Welcome to everyone. Thank you for 
joining us today. Thank you to our witnesses. Thanks to our 
Ranking Member, Senator Grassley, and most especially to 
Senator Leahy, the Chairman of the Judiciary Committee, for 
giving me this privilege of chairing this hearing.
    We are convened today to hear testimony regarding the 
Women's Health Protection Act: Removing Barriers to 
Constitutionally Protected Reproductive Rights, and our first 
panel consists of a number of our colleagues who have positions 
and views on this issue. We welcome you this morning from the 
House, as well as my colleague Senator Baldwin of the Senate, 
who is my cosponsor in the measure that is now pending before 
the Senate and who has been a leader for a long time in this 
area.
    We have support from more than 30 of our Senate colleagues, 
and my understanding is that the companion measure introduced 
by Representative Chu has 125 cosponsors in the House, or 
thereabouts.
    The reason for this bill is essentially the cascading 
avalanche of restrictions on reproductive health care around 
the country. What we see increasingly is, in effect, an 
avalanche of measures that purportedly protect women's health 
care, but in reality restrict reproductive rights. This bill is 
about stopping laws that purport to be about health when really 
they interfere with the doctor-patient relationship and have 
the effect, the very practical impact of harming women and 
limiting constitutionally protected rights. Our goal, speaking 
for myself, our goal is to stop politicians from playing doctor 
and stop public officials from interfering in significant 
medical decisions that should be made by medical experts and 
patients together.
    This legislation would eliminate limitations on access to 
abortion services and eliminate the targeting and unwarranted 
restrictions against abortion providers and clinics, no matter 
where a woman may live. In fact, more than half the States now 
have these very unwarranted and unconstitutional restrictions, 
and the majority of women in our country live in those States. 
They have passed 92 restrictions on a woman's right to choose 
in those States, since 2011 more than 100, and in 2014 at least 
another dozen of these harmful laws have been enacted. So we 
are talking about serious harassment of reproductive health 
care providers, singling them out for regulations that apply to 
no other medical services, regulations that do nothing to 
improve a woman's health or safety, and, in fact, are more 
likely to harm them. These regulations are designed to shut 
doors of vital health care providers forever, and that purpose 
has been fulfilled across the country as the availability of 
these services has been restricted.
    These regulations are in effect a pernicious charade, and 
one of the purposes that I see in this hearing is to remove the 
patina of respectability and show that they are, many of them, 
irresponsible and even reprehensible. Under the guise of 
protecting women's health care, they actually endanger it.
    I want to thank again our witnesses and my fellow members 
for making this hearing happen. We may disagree on these 
issues, but I know that we are going to have a very 
enlightening and engaging hearing. And I want to turn now to 
the Ranking Member, Senator Grassley, for his remarks.

           OPENING STATEMENT OF HON. CHUCK GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. Thank you to our colleagues in the other 
body that are here, as well as the Senator from Wisconsin, and 
thank you for the succeeding panel that will be here.
    Four and a half years ago, a woman walked into an abortion 
clinic with the expectations that she would have her pregnancy 
terminated and that she would walk out of that clinic without 
major side effects. She was 41 years old and 19 weeks pregnant. 
She had three children, and she was also a grandmother. She and 
her daughter entered the clinic, but she never left alive. Her 
name was Karnamaya Mongar. She was one of the many victims of 
Kermit Gosnell.
    Kermit Gosnell operated a clinic in West Philadelphia for 
four decades. He made a living by performing abortions that no 
other doctor should ever do. The grand jury report charging 
Kermit Gosnell stated, ``Gosnell's approach was simple: keep 
volume high, expenses low, break the law. That was his 
competitive advantage.'' Also according to the grand jury 
report: ``Gosnell ran a baby charnel house. It smelled of cat 
urine. Furniture and blankets were stained with blood. 
Instruments were not sterilized, and medical equipment was 
broken. He provided same-day service. Required counseling was 
ignored. The bigger the baby, the bigger the charge. 
Ultrasounds were forged so that the government would never know 
how old aborted babies truly were. Babies were born alive, 
killed after breathing on their own, by sticking scissors into 
the back of the baby's neck and cutting the spinal cord. These 
were live, breathing, squirming babies.''
    He did not care about the well-being of these aborted 
babies. He did not care about the health of the women. Women 
were put under because he disliked the moaning and groaning and 
screaming.
    This practice and his disregard for the law led to the 
death of two women, including the one that I have already 
mentioned.
    Now, Pennsylvania has a law against abortions after 24 
weeks. It also has a very commonsense law that says women 
should receive counseling about abortion procedures and they 
must wait 24 hours after the first visit to the provider in 
order to fully consider the decisions that they are about to 
make.
    While it is true that Kermit Gosnell ignored the law, these 
laws have saved lives. They have saved women from horrible, 
life-threatening procedures. They have saved babies.
    If the bill we are discussing today, the Women's Health 
Promotion Act, were to become law, Pennsylvania's laws would be 
invalidated. Abortion providers would not be required to 
counsel their patients or give them 24 hours to consider what 
they were about to do. And, more importantly, it would lead to 
inhumane, unsanitary, heinous, dangerous, shocking, and unsafe 
abortions. The law that helped convict Kermit Gosnell would be 
wiped away.
    This proposed legislation is an attempt to override U.S. 
Supreme Court precedent by severely restricting the ability of 
States to regulate abortion. It would invalidate hundreds of 
abortion-related laws, such as clinic regulations, admitting 
privileges requirements, regulations on abortion-inducing 
drugs, reflection periods, ultrasound requirements, conscience 
protections, sex-selection bans, and limitations on the use of 
State funds and facilities for abortion training.
    Now, my home State of Iowa has laws on the books to protect 
the unborn and the health of the women. For example, an Iowa 
law stipulates that when inducing an abortion by providing an 
abortion-inducing drug, a physician must be physically present 
with the woman at the time the abortion-inducing drug is 
provided. That was enacted to ensure that women were not taking 
abortion-inducing drugs via webcam and then far from a medical 
provider who may save the life if a problem came about.
    We also have a law on the books to protect the rights of 
medical professionals. Specifically, the law says: ``An 
individual who may lawfully perform, assist, or participate in 
medical procedures which will result in an abortion shall not 
be required against that individual's religious beliefs or 
moral convictions to perform, assist, or participate in such 
procedures. A person shall not discriminate against any 
individual in any way, including but not limited to employment, 
promotion, advancement, transfer, licensing, education, 
training, or granting of hospital privileges or staff 
appointments, because of the individual's participation in or 
refusal to participate in recommending, performing, or 
assisting in an abortion procedure.''
    Iowa and many other States have taken action on their own 
to make sure that abortions are done safely. They have 
protected individuals from having to kill babies against their 
own religious beliefs.
    Yet the bill before us would invalidate these laws and 
would allow abortion providers to set standards of care for 
their patients with no oversight from the States. It would 
allow health care workers to determine when a life is viable, 
ensuring that there are several and various standards across 
the country. The bill would invalidate laws enacted by 10 
States since 2010, which declare that unborn children are 
capable of experiencing pain at least by 20 weeks of fetal age, 
and that generally prohibit abortion after that point.
    If the bill before us were to be signed into law, the 
Federal Government would send a message to States that enacting 
laws to protect patients and regulate the health and welfare of 
their citizens is not one of their Tenth Amendment rights. It 
would allow Congress to intrude on States' rights and nullify 
such laws.
    This bill is a weak political opportunity before the 
midterm elections. It is unfortunate that the majority is using 
this issue to appear compassionate and concerned about women's 
rights when, in reality, the bill disregards popular and 
commonsense laws enacted in various states aimed at protecting 
women and children across this country and stopping murders 
like Kermit Gosnell. Large majorities of Americans support 
strong abortion restrictions that this bill would overturn.
    This bill will not become law because the American people 
will not support it. I thank the witnesses once again.
    Thank you.
    Senator Blumenthal. Thank you, Senator Grassley.
    We will now hear from our colleagues, and, again, my thanks 
to the Congresswomen who have come to join us. Let us begin 
with Senator Baldwin, if we may.

                STATEMENT OF HON. TAMMY BALDWIN,
           A U.S. SENATOR FROM THE STATE OF WISCONSIN

    Senator Baldwin. Thank you, Chairman Blumenthal and Ranking 
Member Grassley and members of the Committee, for this 
opportunity. I am encouraged that the Committee is pursuing a 
constructive conversation on this issue, and I am grateful for 
the opportunity to share my work on the Women's Health 
Protection Act.
    I would also like to recognize the tireless advocacy of my 
Wisconsin State Representative Chris Taylor, who is here today 
and will be on the second panel to share her experience working 
to defend women's access to health care in Wisconsin. I thank 
her for her testimony today.
    Americans across the country expect to have access to high-
quality, dependable health care when they and their families 
need it. Indeed, my colleagues and I have worked to reform and 
improve health care, the entire health care system, to expand 
access to quality, affordable health care options so that all 
patients have health care that meets their needs.
    Unfortunately, for women in this country, this access has 
come under attack. Over the last 40 years, politicians across 
the country have been increasingly chipping away at the 
constitutional rights guaranteed under Roe v. Wade, which 
affirmed that women have the right to make their own personal 
health care decisions and have access to safe and legal 
reproductive care.
    Since that landmark decision by our Nation's highest Court, 
too many States have been trying to turn back the clock on 
women's access to quality care.
    In just the past 3 years, States across the country have 
enacted a total of 205 provisions that restrict women's access 
to safe abortion services. This year, 13 States have been busy 
working to erode women's freedoms and have already adopted 21 
new restrictions designed to limit access to abortion.
    In my home State of Wisconsin, we are now ranked as one of 
the worst States when it comes to women's reproductive rights 
thanks to the restrictive measures enacted by our Governor and 
our legislature.
    To name just one, last year our Governor signed a measure 
forcing women--who are already required by law to make two 
separate trips to the clinic--to also undergo an invasive 
ultrasound 24 hours before receiving abortion care.
    This same law also forces health care professionals to have 
unnecessary admitting privileges at a local hospital. If it 
were not for a Federal judge temporarily blocking this 
provision, two of Wisconsin's four abortion clinics would have 
been forced to shut their doors, and others would have been 
forced to reduce services, leaving many Wisconsin women out in 
the cold.
    But women and their families should not have to rely on 
last-minute court decisions to be able to make the best 
decisions for themselves and their families.
    I recently heard from a mother in Middleton, Wisconsin, who 
was not so lucky. When she found out her baby had a severe 
fetal anomaly and would not survive delivery, she had to endure 
the consequences of the Governor's new law before the Federal 
court judge blocked the provision.
    She had to undergo an emergency termination, and a clinic 
in Milwaukee was the only place that would do the procedure. 
But because the Governor was set to sign the law imposing these 
unreasonable requirements on providers, the clinic was 
preparing to close its doors and would not schedule her 
procedure. She and her husband were forced to find child care 
for their two sons and travel out of State so she could receive 
the medical care that she needed.
    The threat in Wisconsin and in States across the country is 
clear. Some politicians are doing this because they think they 
know better than women and their doctors. And the fact is that 
they do not.
    Women are more than capable of making their own personal, 
medical decisions without consulting their legislator.
    It is not the job of politicians to play doctor and to 
dictate how professionals practice medicine. Nor is it our job 
to intrude in the private lives and important health decisions 
of American families.
    This is why I was proud to be a cosponsor of the Women's 
Health Protection Act with my colleagues Senator Blumenthal and 
Congresswoman Chu to put a stop to these relentless attacks on 
women's freedom.
    Let me conclude by briefly describing the bill.
    The Women's Health Protection Act would prohibit these laws 
that undermine and infringe on a woman's constitutional rights 
guaranteed under Roe v. Wade. Specifically, our bill would 
outlaw any mandate or regulation that does not significantly 
advance women's health or safety. Our legislation also protects 
women by invalidating measures that make abortion services more 
difficult to access and restrictions on the provision of 
abortion services that are not imposed on any other medical 
procedures.
    Congress is responsible for enforcing every American's 
fundamental rights guaranteed by our Constitution. Throughout 
history, when States have passed laws that make it harder--or 
even impossible--to exercise those rights, we have necessarily 
stepped in with Federal protections. The Women's Health 
Protection Act would ensure that every woman--no matter where 
she lives--has access to safe, quality reproductive health care 
without interference from politicians.
    I thank you for your time.
    [The prepared statement of Senator Tammy Baldwin appears as 
a submission for the record.]
    Senator Blumenthal. Thank you, Senator.
    Representative Black.

        STATEMENT OF HON. DIANE BLACK, A REPRESENTATIVE
            IN CONGRESS FROM THE STATE OF TENNESSEE

    Representative Black. Chairman Blumenthal, Ranking Member 
Grassley, and Members of the Committee, thank you for the 
opportunity to testify before you today. As has been said, my 
name is Diane Black, and I am privileged to have the honor of 
serving in the House of Representatives on behalf of 
Tennessee's 6th Congressional District.
    Prior to entering public service, I built my career around 
the health care sector as a registered nurse. My career began 
as an emergency room nurse, where I spent the majority of my 
career, but I have also worked as a long-term care nurse and as 
part of an outpatient surgery team. I decided to run for office 
after I witnessed firsthand how poor public policy was directly 
impacting my ability to deliver health care and, more 
importantly, the unfortunate outcomes on the lives of my 
patients.
    Today I am here to share with you, as a colleague in the 
House, and also as a mother, a grandmother, and a nurse, my 
grave concerns with the Chairman's legislation. Although called 
``The Women's Health Protection Act,'' this bill would nullify 
and declare unlawful any law at any level of the Government--
whether Federal, State, or local--that presents what the bill 
deems to be an undue burden on women seeking an abortion. This 
legislation would effectively overturn the majority of State 
laws regulating abortions.
    As a nurse, I can tell you that abortion is unlike any 
other medical procedure. This is an act that does not just 
involve the mother, but the child. It takes the life of an 
unborn child and in the process imposes many serious medical 
risks to the mother.
    To be clear and transparent, I am unapologetically pro-
life. And while I believe that the life of an unborn must be 
protected, I also believe that we must do everything in our 
power to protect any woman who decides to have an abortion, 
even though I may disagree with their choice.
    During my time in the ER, a young woman came in after 
having complications with her abortion, which had been done at 
a clinic that was not regulated properly. When the 
complications occurred, there was no answer at the after-hours 
number that she called. And by the time she reached the 
hospital, she was dying and there was nothing that I or the 
doctors could do to save her life.
    As a result of an abortion, the young woman lost her 
precious life. Her life could have been saved if proper 
regulations had been in place that protected her health and 
well-being and that held the abortionist accountable.
    Now, infections occur in 1 to 5 percent of the abortions. 
Cervical lacerations, incompetent cervix, and other injuries 
can occur to the cervix and other organs during abortion 
procedures. Worse, minors are up to twice as likely to 
experience cervical lacerations during an abortion and overall 
are even more susceptible to short-term risks than are older 
women.
    Women who have had abortions are at a 37 percent increased 
risk of pre-term birth in subsequent pregnancies, a 30 to 50 
percent increased risk of placenta previa in subsequent 
pregnancies, and 18 percent more likely to develop breast 
cancer as opposed to the average of just 12 percent. In the 
case of women with a family history of breast cancer, this 
jumps up to 80 percent.
    Abortions not only pose serious physical risks but endanger 
a woman's mental health as well. Studies show that after having 
an abortion, a woman is 81 percent more likely to develop a 
mental health issue, is at a 37 percent increased risk of 
depression, a 110 percent increased risk of alcohol abuse, and 
sadly, a 155 percent increased risk of suicide.
    After the horrific case of abortionist Kermit Gosnell, 
Americans know that even though abortions are legal, these 
procedures that are risky and must be regulated. Perhaps this 
is why 39 States require that abortions be performed by a 
licensed physician and why 26 States require abortion clinics 
to meet the same clinic standards as ambulatory surgical care 
clinics. And just as important, 42 States prohibit abortion 
after a certain point in the pregnancy, and about 9 States 
prohibit abortions at 20 weeks, or at the start of the sixth 
month of pregnancy, when medical research affirms that unborn 
children can feel pain during an abortion. We are, after all, 
discussing a medical procedure that ends a human life.
    Let us also not forget that the Supreme Court indicated in 
Planned Parenthood v. Casey that the Government has an interest 
in preserving fetal life. Senate bill 1696 represents a 
sweeping attempt to undermine dozens of measures enacted by 
States to protect women, all under the false pretense that 
abortions are safe and rare.
    My hope today is that we can reach across party lines, 
realize our preconceived notions on this topic, and see 
abortion for what they really are. Abortion is brutal--to both 
the mother and the unborn child. It is not health care. To 
reference the Supreme Court, a dilatation and extraction 
abortion, which represents the majority of abortion procedures 
in America, is as generally gruesome as partial birth abortion. 
These abortion procedures are the most common for abortions 
performed in the second trimester of pregnancy, where the 
unborn child is literally torn apart limb by limb.
    In considering this and the many health care risks that can 
occur as a result of abortions, I strongly urge you to 
reconsider advancing Senate bill 1696 and any other effort that 
would undermine current laws that exist to protect the health 
and well-being of women and unborn children at the Federal 
level, State, and local government level.
    Thank you again for the opportunity to be here today, and I 
yield back.
    [The prepared statement of Representative Diane Black 
appears as a submission for the record.]
    Senator Blumenthal. Thank you, Representative Black.
    Representative Chu.

          STATEMENT OF HON. JUDY CHU, A REPRESENTATIVE
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Representative Chu. Thank you, Chairman Blumenthal, Ranking 
Member Grassley, and Committee members for the opportunity to 
testify today. Every woman should have access to affordable and 
comprehensive health care coverage that protects her right to 
choose. This should be the case regardless of her income, the 
type of insurance she has, or the State she resides in so that 
she can make personal health decisions based on what is best 
for her and her family.
    But we are witnessing an alarming moment in time. Attacks 
on reproductive rights are intensifying. Having lost in our 
court system with Roe v. Wade, opponents of reproductive 
freedom are trying to undercut our constitutional right and 
make it increasingly difficult to access a legal abortion. They 
are trying to take us back to a time before Roe, when 1.2 
million women resorted to illegal abortions each year. Their 
goal is to take us back to a time when unlicensed doctors, in 
unsanitary conditions, performed abortions that led to 
infections, hemorrhages, and at times, death. They are taking 
us back to a time when many women knew the hazards, but risked 
all of this because they were desperate--and this was their 
only option.
    The new trend is to shut down abortion services, but this 
time State by State.
    This is happening all across the country. Individual States 
have signed into law restrictive regulations that single out 
abortion services. Between 2011 and 2013, more than two dozen 
States passed over 200 restrictions that block access to 
abortion services. This translates to more restrictions placed 
on women's health care in 3 years than in the entire preceding 
decade.
    The effect of these laws is that a woman's constitutional 
right now depends on her address. The rights of women residing 
in my home State of California now vastly differ from the 
rights of women living in Texas or Mississippi. According to 
the Guttmacher Institute, 56 percent of women--over half of 
women in our country--now live in a State that is hostile to 
abortion.
    These laws range from mandatory waiting periods to biased 
counseling requirements to the exact size requirements and 
corridor width for the offices in which the procedure is to 
take place.
    They are laws like the recent one in Texas, which make no 
sense medically. They require doctors performing abortion 
procedures to have formal admitting privileges at a hospital 
within 30 miles of their clinic, among other senseless 
requirements. We already see the effects. After the law passed, 
clinics began closing their doors. For women in Texas, this 
means longer waits, higher costs, and canceled appointments. 
Some have to travel over 150 miles to get to the nearest 
clinic. These obstacles have put many women in desperate 
circumstances, some of which may very well endanger their 
lives.
    We need laws that put women's health and safety first--not 
politics. And that is why we introduced the Women's Health 
Protection Act this Congress. We recognized that without the 
ability to access it, the right to abortion is meaningless. 
This bill would outlaw the restrictive State laws that target 
abortion services and shut down clinics across the country. The 
bill would outlaw State-mandated medical procedures such as 
forced ultrasounds, restrictions on medication abortions, and 
other onerous TRAP laws. Simply put, this bill would end 
discrimination against abortion access for women based on their 
zip code.
    I am so proud to be the lead sponsor of this bill in the 
House and to partner with Senators Blumenthal, Baldwin, and 
Congress Members Fudge and Frankel to push as hard as we can on 
this bill. We already have 124 cosponsors in the House.
    Constitutional rights should never be subject to the 
personal whims or beliefs of political leaders. Nor should the 
safety of mothers, daughters, sisters, or wives be jeopardized 
in the process.
    Thank you for the opportunity to testify, and thank you for 
holding this important hearing to discuss how we can protect 
the health, safety, and rights of all women.
    [The prepared statement of Representative Judy Chu appears 
as a submission for the record.]
    Senator Blumenthal. Thank you, Representative Chu.
    Representative Blackburn.

    STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Representative Blackburn. Thank you, Mr. Chairman. I 
appreciate the opportunity to join you all. Senator Grassley, 
thank you for the invitation.
    I think that it is fair to say that every one of us at this 
table, and certainly each of you, we all want what is best for 
women. We differ on what that is, and we differ on how to get 
there. And I am very appreciative of the opportunity to be here 
and to talk with you about this legislation, the Women's Health 
Protection Act.
    In my opinion, it is something that is extraordinarily 
broad, it is loosely written, and through its wide-ranging 
words would, in my opinion, substitute the special interests of 
the abortion industry for both the well-being of women and the 
value of human life.
    The legislation would jeopardize and nullify hundreds of 
laws, as has previously been mentioned at this table, laws that 
protect both mothers and their unborn children. Among my 
concerns with the bill--and Senator Grassley mentioned several 
of these--it would render impossible efforts by the States to 
limit abortions based on the sex of the child; it would put a 
double pressure on women, who are often forced by familial or 
cultural pressures, to exercise male bias in pregnancy and 
eliminate a female child.
    Furthermore, this legislation sets a dangerous precedent 
because it would place unconstitutional limits on a State's 
ability to assure the safety of medical facilities. Abortions 
are indeed invasive medical procedures and should be regulated 
by the States as such.
    In addition, by considering this legislation, many of your 
constituents perceive that this body is out of touch with the 
consensus opinion in this country. Public opinion polls show 
time and again that the American people support limits on 
abortion. They support this. Sixty percent of Americans believe 
abortion should not be permitted in the second trimester, and 
an overwhelming 80 percent believe it should never happen in 
the third. Women hold these convictions at a higher percentage 
than men, and it is no wonder. We bear life--and we bear the 
burden when public policies fail to support women at a critical 
hour.
    The Committee would be well advised to consider how far 
this bill goes in reversing and uprooting both a long-existing 
and rising consensus. S. 1696 would attack conscience 
exemptions that have existed since the 1973 abortion decision. 
It would bar laws that provide for periods of reflection and 
consideration before an abortion is chosen. It would even 
prevent a State from assuring that a physician is physically 
present when abortion drugs are given or even that only a 
physician may perform a surgical abortion. It would make the 
abortion process less safe.
    What the Senate should be considering today is the Pain-
Capable Unborn Child Protection Act which passed the House of 
Representatives on June 17, 2014, on a bipartisan vote, 228-
196. The Pain-Capable Act is a piece of legislation that is 
supported by the American people. It is based in science and 
filled with compassion. The Pain-Capable Unborn Child 
Protection Act limits abortions after the 20th week of 
pregnancy except in the instances of rape, incest, or to 
protect the life of the mother. Our Nation is one of only about 
seven countries in the world to allow elective abortion to 
term, and this legislation would take one small but vital step 
to move us closer to the international norms.
    Polls by Quinnipiac University, the Washington Post, and 
the Huffington Post have all shown that a strong majority of 
people support limiting abortion after the 20th week of 
pregnancy. Quinnipiac University's poll shows that women 
support a 20-week limit in even greater numbers than men--60 
percent of women versus 20 percent in opposition--a 35-point 
margin.
    Let me give you an example of why these have changed. You 
all have an exhibit from me, and I want to show you this. This 
is a 3-D ultrasound of my grandson. It was made on March 11, 
2009, before his birth June 12, 2009. This is the wonder of 
science. And I have to tell you how exciting it was for me to 
see this ultrasound. I was thrilled. I could tell--I could 
tell--before he was born, 3 months before he was born, he had 
my eyes and nose. Now, for a grandmother, that is a really big 
deal. I could see his hands. I could see his arms. And I could 
see him peacefully resting in his mother's womb.
    That is the wonder of science. That is life. Our 
Constitution does not put a qualifier on life. The pursuit of 
life, liberty, pursuit of happiness, those protections, the 
right to life, liberty, pursuit of happiness, even in the 
mother's womb.
    I urge this Committee to reconsider this legislation. We 
have mentioned today the horrors of the Kermit Gosnell trial, 
the Philadelphia-based abortionist who ran a dangerous, 
illegal, and ghastly so-called clinic. He was tried, rightfully 
convicted for the crimes he committed and the deaths that he 
caused in that terrible place. Yet the legislation that you are 
considering, the Women's Health Protection Act, could be used 
to validate the acts that placed him behind bars and to 
invalidate the bipartisan legislation put in place.
    I find it so curious that your legislation is termed ``The 
Women's Health Protection Act.'' In my opinion, it would be 
more accurately titled ``The Removal of Existing Protections 
and Safety Measures for Women Undergoing Abortion Act.''
    I encourage you to reconsider your legislation, to take up 
the Pain-Capable Unborn Child Protection Act, and to be more in 
line with the consensus of Americans and the States who are 
making certain that abortion is indeed safe, legal, and rare.
    I yield the balance of my time.
    [The prepared statement of Representative Marsha Blackburn 
appears as a submission for the record.]
    Senator Blumenthal. Thanks to each of you, and we are going 
to move to our next panel. We really appreciate your being here 
this morning. Thanks for your excellent testimony.
    Before you get too comfortable, I am going to ask you to 
stand because the custom of our Committee is to swear in our 
witnesses. If you would please rise? Do you affirm that the 
testimony you are about to give is the truth, the whole truth, 
and nothing but the truth, so help you God?
    Ms. Northup. I do.
    Dr. Chireau. I do.
    Dr. Parker. I do.
    Ms. Tobias. I do.
    Ms. Taylor. I do.
    Senator Blumenthal. Thank you. Let me introduce our 
witnesses before they give their testimony.
    We are going to begin with Nancy Northup, who is the 
president and CEO of the Center for Reproductive Rights. She 
has worked as a constitutional litigator and Federal prosecutor 
before her appointment at the Center for Reproductive Rights, 
which is a global human rights organization that has documented 
rights abuses, brought ground-breaking cases before Federal and 
State courts, U.N. committees, regional human rights bodies, 
and has built the legal capacity of women's right advocates in 
more than 55 countries.
    Dr. Monique Chireau is an obstetrician/gynecologist in 
Durham, North Carolina, and affiliated with multiple hospitals 
in the area, including Duke University Hospital and Durham 
Veterans Affairs Medical Center. She is one of 250 doctors at 
Duke University Hospital and one of 5 at Durham Veterans 
Affairs Medical Center who specialize in obstetrics and 
gynecology.
    Dr. Willie Parker, our third witness, has over 20 years of 
experience providing comprehensive women's medical care. He is 
board certified and trained in preventive medicine and 
epidemiology through the Centers for Disease Control. Dr. 
Parker currently provides abortion care for women in Alabama 
and Mississippi.
    Carol Tobias is president of the National Right to Life 
Committee. She has held various positions at the National Right 
to Life Committee since 1991.
    Representative Chris Taylor represents Assembly District 76 
in the Wisconsin Assembly. Representative Taylor has a long 
history of working with the State legislature even prior to her 
election in 2011, and she has led numerous State and local 
coalitions in various settings around the State of Wisconsin.
    We welcome you all and thank you very, very much for being 
here this morning. Nancy Northup.

         STATEMENT OF NANCY NORTHUP, PRESIDENT, CENTER
          FOR REPRODUCTIVE RIGHTS, NEW YORK, NEW YORK

    Ms. Northup. Thank you, Senator Blumenthal, and thank you, 
Ranking Member Grassley, for having us here today for this 
important hearing. I am Nancy Northup, and I am president and 
CEO of the Center for Reproductive Rights.
    Today, one of our most basic protections of our 
Constitution--the right to make for ourselves the important 
decisions of our lives--is under assault for women throughout 
vast swaths of the Nation. There have been over 200 State laws 
passed in the last 3 years designed to make it harder or 
impossible for women to access abortion services in their 
communities. And we are not blocked by courts. This new wave of 
restrictions is shutting down clinics, closing off essential 
services, and harming women.
    This is the newest tactic in a four-decade campaign to 
deprive women of the promise of Roe v. Wade. There have been 
during those four decades terrorizing physical attacks; clinics 
bombed, vandalized, and torched; doctors and clinic workers 
murdered; and clinics blockaded. Twenty-five years ago, I 
locked arms with members of my church and concerned citizens in 
Baton Rouge to form a human chain of protection around a 
reproductive health care clinic as hundreds of Operation Rescue 
protesters descended, intent on obstructing patients from 
entering. This scene was played out over and over again across 
the Nation. Federal action was needed and taken in 1994, with 
Congress' passage of the Freedom of Access to Clinic Entrances 
Act.
    Today, women's access to abortion services is being blocked 
through an avalanche of pretextual laws that are designed to 
accomplish by the pen what could not be accomplished through 
brute force--the closure of facilities providing essential 
reproductive health care to the women of this country.
    At an alarming rate, States are passing laws that single 
out reproductive health care providers for excessively 
burdensome regulations designed to regulate them out of 
practice under the false pretense of health and safety.
    When Mississippi enacted such a law in 2012, a State 
Senator put it quite plainly: ``There is only one abortion 
clinic in Mississippi,'' he said. ``I hope this measure shuts 
that down.'' Right now, Mississippi's sole clinic is holding on 
by virtue of a temporary court order.
    Even when not flatly stated, the true purpose of these laws 
is evident. Abortion is one of the safest medical procedures, 
yet it is being singled out for burdensome restrictions not 
placed on comparable medical procedures. For example, 
obstetricians who perform miscarriage completions in their 
office practices are not subject to these onerous requirements, 
despite the fact that they are performing virtually the same 
medical procedure as abortion providers, who are subject to 
these requirements.
    The American Medical Association and the American College 
of Obstetricians and Gynecologists have gone on record against 
many of these laws. And, indeed, you have their testimony 
before you today for the ACOG. Courts have found some so at 
odds with medical standards that they can serve no purpose but 
to prevent women from ending a pregnancy.
    But the road blocks keep coming. A year ago, Texas passed a 
sweeping set of restrictions to devastating effect. At least 
one-third of that State's clinics have been forced to stop 
providing abortion care. There is no clinic left in the Rio 
Grande Valley, an impoverished area with over 1.3 million 
residents. If the final requirement of Texas' restrictions is 
allowed to go into effect in September, the number of clinics 
will plummet to less than ten to serve a sprawling State of 
over 260,000 square miles and 13 million women.
    Even before this new law, a 2012 study in Texas found that 
7 percent of women reported attempts to self-abort before 
seeking medical care. Now women are crossing the border into 
Mexico to buy miscarriage-inducing drugs at flea markets or off 
the shelves at pharmacies--and then seeking needed emergency 
care back in Texas.
    Like all of us here, I come to the issue of abortion rights 
with my own set of life experiences, personal commitments, and 
religious beliefs. As the Supreme Court wisely noted over 20 
years ago in Planned Parenthood v. Casey, men and women of good 
conscience can disagree, and probably always will, about the 
moral and spiritual implications of ending a pregnancy. In 
reaffirming the basic tents of Roe v. Wade, the Court reminded 
us that ``it is a promise of the Constitution that there is a 
realm of personal liberty which the government may not enter.'' 
The most fundamental decisions about our reproductive health 
and lives are for each of us to make, and not for the 
government.
    One in three women in the United States makes the decision 
at some point in her life that ending a pregnancy is the right 
choice for her. That decision is based on her individual 
circumstances, her health, and her life. None of us walk in her 
shoes. None of us know the factors that lead to her decision.
    And when a woman makes that decision, she needs good, safe, 
reliable care from a health care provider she trusts, in or 
near the community that she calls home.
    But today a woman's ability to do so increasingly depends 
on the State in which she happens to live. Like 20 years ago, 
Congress needs to take action to ensure that women's 
constitutional rights and their ability to make the most 
personal of decisions is not taken from them.
    Thank you.
    [The prepared statement of Nancy Northup appears as a 
submission for the record.]
    Senator Blumenthal. Thank you, Ms. Northup.
    Dr. Monique Chireau.

             STATEMENT OF MONIQUE V. CHIREAU, M.D.,
                     DURHAM, NORTH CAROLINA

    Dr. Chireau. Yes, thank you. It is an honor to be here 
today, Senator Blumenthal, Senator Grassley. My name is Dr. 
Monique Chireau. I am on the faculty of the Duke University 
Medical School. I am also a practicing obstetrician/
gynecologist and a clinical researcher.
    S. 1696 could reasonably be interpreted to invalidate 
virtually any type of current State laws which place 
restrictions or regulations on abortion. It would also endanger 
health care providers' freedom of conscience and would prohibit 
the future enactment of such protective laws.
    The stated purpose of the bill, as we have understood it, 
is to protect women's health by ensuring that abortion services 
will continue to be available. Implicit in this stated purpose 
of the bill are the four following assumptions: number one is 
that abortion is good and safe for women; number two, that 
State abortion restrictions and regulations are medically 
unwarranted; number three, that access to abortion is important 
to women's health; and, number four, that the State has no 
interest in protecting unborn children. I will address each of 
these in turn.
    The Centers for Disease Control define an induced abortion 
as ``an intervention performed by a licensed clinician that is 
intended to terminate a suspected or known intrauterine 
pregnancy and produce a nonviable fetus at any gestational 
age.'' The U.S. Supreme Court has repeatedly acknowledged that 
abortion is inherently different from other medical procedures, 
because no other procedure involves the purposeful termination 
of a potential life, and that the abortion decision has 
implications far broader than those associated with other 
medical treatment.
    Assumption number one is that abortion is good for women. 
However, a substantial body of literature indicates that 
induced abortion is associated with significant risks and 
potential harms to women. It is stated to be very safe at early 
gestational ages; however, in a very large study from Finland 
of 42,619 women, the maternal mortality rate from abortion was 
14.1 per 100,000. Approximately 20 percent of the women in this 
study experienced severe adverse events, such as hemorrhage and 
infection.
    This study included both surgical and medical abortions. 
These statistics represent a significant burden of disease, and 
if they were extrapolated to the United States, that would 
translate into 260,000 adverse events per year.
    Further research has also demonstrated that the risk for 
abortion performed at greater than 21 weeks is greater--is 
greater when performed at 21 weeks than at lower gestational 
ages. The risks for death ranged from about 0.1 to 0.4 per 
100,000 to 8.9 per 100,000. However, because of problems with 
the denominator of this study, the results cannot easily be 
extrapolated. The point is that late abortion carries a 77 
times increased risk for mortality compared with early 
abortion, and that is a significant issue. This is mortality. 
This is not morbidity. This is death.
    Other complications can occur following abortion. Induced 
abortion of a first pregnancy, as we have heard earlier, 
increases the risk of subsequent preterm birth. There is also a 
robust literature on mental health problems following abortion. 
These mental health problems include anxiety, depression, and 
so on.
    Assumption number two is that State abortion restriction 
regulations are medically unwarranted. States have a compelling 
interest in protecting the health of their citizens, and they 
have the authority to do so within regulatory frameworks, 
including State medical boards and departments of health. 
Historically, States have regulated medical procedures and 
clinics by establishing standards for training and 
credentialing. These standards protect patients from injury and 
death.
    This is important because the fact of the matter is that 
patient-physician interactions do not occur within a vacuum. 
The issue of whether patients have access is a two-sided issue, 
a two-edged issue. This is because access can be--you can have 
access to care which is inadequate, being performed by 
incompetent practitioners, or you can have access to good care.
    And zip codes do matter. In many zip codes in the United 
States, patients have access to care which is inadequate, which 
endangers their health. This bill would not protect the rights 
of patients because it would remove the ability of States to 
regulate the practice of medicine.
    In addition, the scope of practice for different types of 
clinicians is carefully defined. Recently, there have been 
attempts by mid-level practitioners in several States to assume 
the role of providing abortions. Again, this particular bill 
would remove the ability of States to monitor and supervise the 
practice of medicine through abortion.
    One of the questions that comes up in any of these 
discussions regarding the need for improved regulation, 
including monitoring of the access to clinics, widths of 
hallways so that emergency personnel can enter buildings, is, 
what is there to fear from complying with the law? If laws are 
enacted in order to protect the health of patients and--the 
health of patients and to protect really practitioners as well 
by providing them with the appropriate conditions to practice 
in, what is there to fear in this circumstance?
    The question really is, To what extent are we willing to 
surrender States' ability to regulate laws regarding the 
provision of medical care?
    Finally, the fact that the State does have an interest in 
protecting unborn life is not acknowledged in this particular 
bill. There is no mention of unborn children at all, in spite 
of the fact that the purpose of the bill is to eliminate most 
regulations or restrictions on abortion. The Supreme Court has 
recognized since Roe v. Wade that States have a compelling 
interest in the potentiality of unborn life throughout the 
pregnancy. This is because unborn children and their mothers 
are vulnerable to injury, exploitation, and social 
disadvantage. We care about whether a nurse who is mixing 
chemotherapy is exposing her fetus to potentially carcinogenic 
or teratogenic drugs, and this relates to the interest around 
when pregnancy begins. If we do believe that pregnancy begins 
at conception rather than at implantation, which is our 
standard medical definition, we need to begin to consider how 
to best protect the fetus at early gestational ages. Similarly, 
neonatologists are pushing back the boundaries of neonatal 
viability. This bill does not take into account these 
scientific advances because it removes restrictions on 
abortions at various gestational ages.
    So in conclusion, I would like to say that S. 1696 is a 
measure that seeks to overturn longstanding State restrictions 
on abortion that have been supported in the courts. It ignores 
not only widely supported policies and scientific evidence, but 
also prior Supreme Court rulings, and clearly targets State 
regulations which protect the health of our most vulnerable 
citizens--pregnant women and their unborn children. All access 
is not equal. Zip codes do matter, because we want patients' 
zip codes to provide--practitioners within zip codes to provide 
care that is sensitive, affordable, comprehensive, and 
competent.
    Thank you.
    [The prepared statement of Dr. Monique Chireau appears as a 
submission for the record.]
    Senator Blumenthal. Thank you, Dr. Chireau.
    Dr. Parker.

               STATEMENT OF WILLIE PARKER, M.D.,
                      BIRMINGHAM, ALABAMA

    Dr. Parker. Good morning, Senators. I consider it a real 
privilege to speak before this body this morning. My name is 
Dr. Willie Parker, and I am here to today to offer testimony in 
support of the Women's Health Protection Act.
    I have devoted my whole career to helping women have the 
families that they want by providing them with prenatal care 
and delivering their babies, as well as providing them with 
medically accurate sex education, contraception, and, when they 
need it, safe abortion care.
    If there is a war to defend the right to safe and legal 
abortion, then Mississippi, where I practice, is on the front 
line. The State recently passed laws restricting the provision 
of abortion to obstetrician/gynecologists and those with 
hospital admitting privileges. Now, this law, which is 
completely medically unnecessary, would shut down the one 
remaining clinic in that State, and thereby would effectively 
deny women in that State access to abortion. On top of this, 
the State also has mandated delays that are both costly and 
burdensome to the women seeking this care. A woman's access 
should not be denied to her simply because she lives in the 
State of Mississippi, or anywhere else, for that matter. The 
thing that should determine the care that a woman receives, it 
should be determined by medical evidence and not by her zip 
code.
    Now, the proponents of these laws would say that they are 
protecting the health of women, and they are within their right 
to believe that, but the truth would suggest otherwise. Here 
are the facts in Mississippi: there are far too many teen and 
unintended pregnancies; the infant mortality and maternal 
mortality rates are extremely high; and there are far, far too 
many Mississippians living in abject poverty. These realities 
confront every woman whether she has an undesired pregnancy or 
a wanted but fatally flawed one. What women in Mississippi need 
is safe, compassionate medical care, and that need is urgent, 
and that care should include abortion. Because of these facts, 
I made what I consider to be the moral decision to provide 
abortion care in this State.
    Now, invariably, given the climate around abortion in this 
country, I field questions from people regarding that decision, 
and the most frequently asked question is: Why? Why do you do 
this? Well, the short answer is because if I do not, who is 
going to do it?
    If women in Mississippi and States surrounding can find a 
way to travel from rural areas under hostile circumstances to 
access the abortion care that they are entitled to, then I made 
a personal decision that I wanted there to be someone at that 
clinic to meet them when they came.
    One patient that I often think of as I think about the work 
that I do is one of the first patients I took care of in 
Mississippi, who was a 35-year-old pregnant woman with five 
children, the youngest of whom had recently died the year 
before from cancer. This woman found herself with an unplanned 
pregnancy, and she confided in me that at this particular point 
in her life she could not care for another child, either 
economically or emotionally.
    Now, she had already traveled an extensive distance to come 
to the mandated counseling that she was required to receive. 
And while she was completely resolute when she walked in the 
door and knew what was best for her and her family, she was 
still required to be delayed in her decision for political 
reasons that had nothing to do with her or her medical care.
    Other women that I saw on that same day were returning for 
their procedure after having made the mandated wait, and they 
had recently completed a second trip from hours away to receive 
their care. These women made it to the clinic despite distance, 
work considerations, child care obligations, and travel costs. 
These women typify the hardships that Mississippi women and 
many other women around this country face as they endure the 
barriers created by the present laws.
    In the 24 years that I have practiced medicine, I have 
learned a few things, and this is what I can tell you. Every 
patient is unique. Every woman is different. And when it comes 
to abortion, every one of them is grappling with a dilemma. I 
define a dilemma as a situation in which one has to make a 
decision between two undesirable outcomes, and yet one does not 
have the luxury of not making that decision.
    While the stories of the women that I see might differ, 
what they all have in common is that for them it is 
increasingly difficult for them to access abortion. So as I 
said earlier, people ask me, ``Why do you do it?'' Well, I 
think the answer is very simple. I want for women what I want 
for myself. I want a life of dignity, good health, self-
determination, and I want the opportunity to excel and to 
contribute in the manner that I best can.
    We know that when women have access to abortion, 
contraception, and medically accurate sex education, they 
thrive in just the matters that I mentioned. It should be the 
same for all women, no matter where they live, because the 
ability to live the life that you imagine should not be limited 
by your zip code.
    Thank you.
    [The prepared statement of Dr. Willie Parker appears as a 
submission for the record.]
    Senator Blumenthal. Thank you, Dr. Parker.
    Ms. Tobias.

         STATEMENT OF CAROL TOBIAS, PRESIDENT, NATIONAL
            RIGHT TO LIFE COMMITTEE, WASHINGTON, DC

    Ms. Tobias. Mr. Chairman, Senator Grassley, and members of 
the Committee, thank you for giving me this opportunity to 
testify. I am Carol Tobias, president of the National Right to 
Life Committee. NRLC is a nationwide federation of 50 State-
affiliated right-to-life organizations. We are the Nation's 
oldest and largest pro-life organization.
    We find the formal title or marketing label, ``Women's 
Health Protection Act,'' to be highly misleading. The bill is 
really about just one thing: stripping away from elected 
lawmakers the ability to provide even the most minimal 
protections for unborn children, at any stage of their 
development. The proposal is so sweeping and extreme that it 
would be difficult to capture its full scope in any short 
title. Calling it the ``Abortion Without Limits Until Birth 
Act'' would be more in line with truth-in-advertising 
standards.
    In its 1980 ruling in Harris v. McRae, upholding the Hyde 
amendment, the U.S. Supreme Court said: ``Abortion is 
inherently different from other medical procedures, because no 
other procedure involves the purposeful termination of a 
potential life.''
    Even many Americans who identify as ``pro-choice'' struggle 
with the abortion issue because they see it as a conflict 
involving life itself. Many, while not fully sharing our view 
that the unborn child should be directly protected in law, 
nevertheless support the kinds of laws this bill would strike 
down, laws that take into account what most Americans recognize 
as a life-or-death decision.
    In contrast, the drafters of S. 1696 apparently believe 
that any woman considering abortion must be shielded from any 
information that may cause her to change her mind.
    Under S. 1696, elective abortion would become the procedure 
that must always be facilitated, never delayed, never impeded 
to the slightest degree.
    What types of laws would the bill invalidate? The list 
includes limits on abortions after 20 weeks, past the point at 
which unborn children can experience pain, which are supported 
by sizable majorities nationwide; laws limiting abortion after 
viability; laws protecting individuals or private medical 
institutions from being forced to participate in abortion, 
which about three-fourths of the people support, and which the 
great majority of States have enacted; laws requiring that 
information be provided regarding alternatives to abortion, 
which 88 percent of the public supported in a Gallup poll; laws 
providing periods for reflection; laws prohibiting abortion 
because of the child's sex, which over 85 percent support. All 
these would be invalid.
    Having failed in many cases to persuade the Federal courts 
to strike down the laws they dislike, the extreme abortion 
advocates now come to Congress and demand that this Federal 
pro-abortion statutory bulldozer be unleashed to scrape 
everything flat.
    The bill would subject any law or Government policy that 
affects the practice of abortion, even indirectly, to an array 
of sweeping legal tests, designed to guarantee that almost none 
will survive. The general rule would be that any law that 
specifically regulates abortion would be presumptively invalid. 
The same would be true of any law that is not abortion-specific 
but has the effect or claimed effect of reducing access to 
abortion.
    It is apparent that those who crafted this bill believe 
that where abortion is involved, immediate access to abortion 
at any stage of pregnancy is the only thing that matters.
    Mr. Chairman, in a November interview with the newspaper 
Roll Call, you said, ``As the election approaches, I think the 
voters are going to want to know where legislators stand on 
these issues.'' But to know where every Senator stands on S. 
1696 would require a vote by the full Senate. By all means, let 
us see where they stand.
    But in the spirit of ``pro-choice,'' how about giving the 
Senate a choice as well? On May 13, Senator Graham proposed an 
agreement under which S. 1695, which has 35 cosponsors, would 
receive a vote of the full Senate, along with a separate vote 
on his Pain-Capable Unborn Child Protection Act, S. 1670, which 
has 41 cosponsors. The Pain-Capable Unborn Child Protection Act 
would protect unborn children in the sixth month and later, 
with narrow exceptions. By this stage in their development, if 
not sooner, there is abundant evidence that unborn babies will 
experience great pain as their arms and legs are wrenched off 
by brute force in the common second-trimester dismemberment 
procedure known as D&E.
    Mr. Chairman, in your response to Senator Graham's 
proposal, you made clear your opposition to his bill. But you 
went on to say, and I quote, ``I am more than happy to cast a 
vote on it along with the Women's Health Protection Act, and I 
hope they will be considered. This issue deserves to be before 
this body.''
    We agree. We challenge you and the leadership of the 
majority party to allow the American people to see where every 
Senator stands on both of these major abortion-related bills. 
Let the American people see which bill reflects the values of 
each member of the U.S. Senate: life or death for unborn 
children. Thank you.
    [The prepared statement of Carol Tobias appears as a 
submission for the record.]
    Senator Blumenthal. Thank you, Ms. Tobias.
    Ms. Taylor.

STATEMENT OF HON. CHRIS TAYLOR, STATE REPRESENTATIVE, WISCONSIN 
      STATE LEGISLATURE, 76TH DISTRICT, MADISON, WISCONSIN

    Ms. Taylor. Thank you so much. Good morning. My name is 
Chris Taylor, and I am a State representative from the great 
State of Wisconsin, representing the 76th Assembly District. I 
so appreciate the opportunity, Chairman Blumenthal, to testify 
in strong support of the Women's Health Protection Act, and I 
thank Ranking Member Grassley and Committee members for this 
opportunity today.
    I also want to thank my Senator, Tammy Baldwim, whom we are 
very proud of in Wisconsin, for leading the way in cosponsoring 
this important bill.
    I am also the former public policy director for Planned 
Parenthood of Wisconsin. I have been for over a decade 
monitoring, advocating for, and attempting to get passed good 
public policy on reproductive health care.
    There is a consensus in Wisconsin about what Wisconsinites 
want the State legislature to focus on, and it is not abortion 
restrictions. It is on the critical economic issues that face 
our State. We have a stagnant economy in Wisconsin. We have 
stagnant wages. Working families are struggling. Those are the 
issues that Wisconsinites want the State legislature to focus 
on. But, unfortunately, that has not been the focus over the 
last 3 years, and Wisconsin has become one of the many 
battleground States where fights over a woman's ability to 
access abortion care are being waged.
    We have only a few health centers in Wisconsin that provide 
abortions, and we have over a dozen abortion restrictions which 
have nothing to do with the health and safety of women and 
everything to do with politics.
    Wisconsin is on the verge of becoming a State like 
Mississippi where abortion is simply not accessible. A woman's 
ability to access safe, legal abortion should not be dependent 
on where she lives or subject to the political whims of her 
State legislature, and that is why I am urging you to pass the 
Women's Health Protection Act.
    Since 2011, we have seen a proliferation of abortion 
restrictions in Wisconsin, including restrictions on medication 
abortion, banning telemedicine, and requiring physicians who 
perform abortions to have hospital admitting privileges within 
30 miles of their practices. We also have a forced ultrasound 
law. The hospital admitting privileges mandate is only imposed 
on physicians who provide abortions.
    I am very fortunate to serve on the Health Committee in the 
State Assembly. There was no medical evidence or testimony 
presented that the admitting privileges status of a woman's 
abortion provider in any way enhances the health and safety of 
women who have abortions. In fact, there was no health care 
provider or health care organization who advocated for this law 
at all.
    In contrast, the medical community vocally opposed this 
mandate, including the Wisconsin Academy of Family Physicians, 
the Wisconsin Hospital Association, the Wisconsin Public Health 
Association, and the Wisconsin Medical Society that stated, 
``This requirement interferes with the patient-physician 
relationship and places an unneeded and unprecedented burden on 
Wisconsin physicians and women.''
    The effect of the hospital admitting privileges law is 
going to be to shut down one of four health centers that 
provides abortions because the two physicians at this center 
are ineligible for these admitting privilege requirements. That 
means that over one-third of the women who seek abortions in 
Wisconsin are going to have to go elsewhere. The effect of that 
is to increase waiting times at the three remaining health 
centers. Currently, there are delays of 3 to 4 weeks to obtain 
an abortion in Wisconsin. With the closure of this clinic, 
those delays would be extended to 8 to 10 weeks.
    Finally, we would have no health care provider providing 
abortions post 18 weeks, and so women who have complications or 
tragedies in pregnancy past 18 weeks are going to have to go 
elsewhere. A delay of this magnitude clearly impacts all 
Wisconsin women seeking abortion care, but it has particular 
devastating effects on low-income women who rely on public 
transportation and cannot afford uncompensated work time and 
travel costs. So for poor women, these additional barriers may 
be insurmountable.
    The same law that requires admitting privileges also forces 
a woman seeking abortion to undergo an ultrasound 24 hours 
before the procedure. The provider must also describe and 
display the image to the woman. This is the most humiliating 
and degrading law that I have seen in Wisconsin. It is 
certainly the Government at its biggest and most intrusive. 
Women are not able to refuse in most cases what is an invasive 
vaginal ultrasound. Physicians have no ability to tailor their 
medical care to the unique situation of each individual woman 
or adopt the best standard of care.
    The medical community in Wisconsin also vocally opposed 
this restriction. They said that the mandatory performance of 
an ultrasound before an abortion is not an accepted medical 
practice or standard of care. This practice does not add to the 
quality or safety of the medical care being provided. Simply 
put, ultrasounds are being used in Wisconsin as political 
bludgeons.
    Unfortunately, my Republican colleagues did not listen to 
the Wisconsin medical community. They did not listen to their 
own Democratic colleagues. We have 18 women in my caucus, in my 
Democratic caucus. As we talked about these issues prior to the 
debate, we realized we all had our own experiences that caused 
us to make very personal decisions about reproductive health 
care. We had members who had experienced pregnancy loss, 
miscarriage, stillbirths, high-risk pregnancies, and sexual 
assault. And we are just a microcosm of all the women in 
Wisconsin who we represent.
    We decided that though we might be ignored by our 
colleagues on the other side of the aisle, that we would never 
be silent, and we decided to tell our own personal stories 
about why these laws are so harmful to women and have nothing 
to do with the reality of women's lives and experiences.
    It is not my role as a legislator to dictate the most 
personal private decisions of my constituents. I have no 
business as a legislator dictating insupportable medical 
practices to a physician who is ethically obligated to provide 
the best care for women, and patients. But I am in the business 
of ensuring that the people in my district, the people I 
represent, are able to exercise their most fundamental, 
personal decisions about their lives. As it stands, with States 
legislating away those rights, we need the Women's Health 
Protection Act more than ever. Wisconsin women and women 
throughout this country simply cannot wait.
    Thank you.
    [The prepared statement of Hon. Chris Taylor appears as a 
submission for the record.]
    Senator Blumenthal. Thank you very much to all of our 
witnesses. I am going to ask, without objection, that all of 
your full statements be entered in the record, along with a 
statement from our colleague, Senator Feinstein.
    [The prepared statement of Senator Dianne Feinstein appears 
as a submission for the record.]
    Senator Blumenthal. And to begin the questions. A number of 
our colleagues have votes at noon, so we will try to move along 
as quickly as we can.
    Ms. Northup, there have been some very dismaying and 
sweeping claims about the breadth of this proposed legislation. 
Ms. Tobias referred to it as the ``Abortion Without Limits 
Act.'' In fact, it is narrowly targeted to certain kinds of, in 
effect, bogus legislation, legislation that masquerades as 
health protection but really is designed to prevent access to 
abortion services that are constitutionally protected.
    So I wonder if you could speak a little bit to the limited 
nature of this legislation, the fact, for example, that it 
specifically prohibits restrictions--and I am quoting from the 
Act--that ``are more burdensome than those restrictions imposed 
on medically comparable procedures.'' In other words, it sets 
medically comparable procedures as the criteria for preventing 
certain kinds of bars to access to abortion services. Could you 
speak to that issue?
    Ms. Northup. Yes, Senator Blumenthal. Thank you for that 
question, because I think we did hear a lot this morning about 
the alleged sweep of this law. But, in fact, it is very 
targeted to what is happening right now in the country. It is 
very targeted to this new tactic of the last several years in 
which State legislatures have been passing laws that purport to 
be about health and safety but are not. And that has been shown 
to be defied in many ways.
    I would definitely recommend everyone read the testimony 
submitted for the record for today's hearing from the executive 
vice president and CEO of the American College of Obstetricians 
and Gynecologists, and that, of course, is the well-respected 
organization to which the vast majority of OB/GYNs belong in 
this country. And in that testimony, they make quite clear--and 
I am quoting--``The American College of Obstetricians and 
Gynecologists strongly support S. 1696, the Women's Health 
Protection Act.'' And they do so because from a scientific and 
medical perspective, these laws are not warranted.
    And I think what is really critical about the bill, which 
you pointed out, Senator, is right from the start, if this is 
something that is treating medically similar practices and 
procedures and services the same, there is no objection. 
Nothing is going to be struck. So that is the starting point.
    Second, if there is a substantial safety basis for the 
regulations, well, then, it is not a law that is unwarranted. 
That law will stand.
    So if it is treating similar medical procedures similarly, 
if it actually advances a safety basis, then that law is going 
to stand. And I think that is important, and there are factors 
that courts would look at in that. But that is what is really 
critical. If it is a true safety law, if it is not about 
singling out abortion provision for the motive of shutting down 
clinics, then that law stands.
    Senator Blumenthal. In fact, a number of the regulations 
that have been claimed to be struck down by this legislation 
the Act specifically says would not be affected, for example, 
funding or insurance or parental consent, other kinds of 
regulations that are now on the books.
    Let me ask you, in terms of these regulations, many have 
been struck down by the courts. Many have been found to be 
unconstitutional. Why a Federal Act that prevents these laws 
from being passed as a matter of statute as opposed to simply 
having the jurisprudential route work its way?
    Ms. Northup. Well, we are here today because we have just 
said 200 of these underhanded laws have been passed, and it is 
not right that women should have to go to court year after year 
after year to get the medical services that the Constitution 
guarantees them. So I think it is important that it be made 
clear what kind of these are already on record. As I said, the 
American Medical Association is on record against many of these 
laws, ACOG is on record against many of these laws, and courts 
are finding many of these laws unconstitutional. It should not 
be a charade every year where women are under threat of losing 
access to services. And we need to make sure that we have 
strong protections because what is happening right now, we 
talked about Texas, which will go down to ten clinics in 
September if that law goes into effect. We have talked about 
Mississippi. We talked of Dr. Parker's practices hanging on by 
a court order. And the unfairness of these laws--in 
Mississippi, the hospitals would not consider giving admitting 
privileges, not based on medical competency but based on their 
opposition or other reasons that have nothing to do with the 
competency of the doctors.
    So we need to make sure that there are strong protections, 
that we do not have this happen every year, and that women can 
be assured that, wherever they live, their personal, private 
decision is going to be respected.
    Senator Blumenthal. While they are on the books, they have 
a very practical impact on women's lives and a very severely 
restrictive impact on their legal rights and a very invasive 
and intrusive consequence for their exercise of personal 
choice. Is that correct?
    Ms. Northup. That is absolutely correct.
    Senator Blumenthal. Let me ask you finally on this round of 
questioning, the issue of admitting privileges, why are 
admitting privileges unnecessary, irrelevant, and in many 
instances found to be unconstitutional?
    Ms. Northup. Well, thank you. That is a very important 
question because that is one of the underhanded tactics that 
has been sweeping the Nation. And, again, I would commend the 
testimony that has been filed by the American College of 
Obstetricians and Gynecologists where they oppose those. It is 
also the case that the American Medical Association and ACOG, 
in a brief in the Fifth Circuit as one example, went on record 
to talk about how there is no medically sound basis for that 
requirement.
    And what is really, I think, important for us to keep in 
mind is--and the AMA and ACOG talk about this in their briefs--
abortion is safe, one of the safest procedures. And an example 
of how this underhanded tactic has closed a clinic in El Paso, 
Texas--it is not open now because of it--17,000 patients were 
seen in that clinic in 10 years, and not one of those had to be 
taken to a hospital or transferred by the clinic.
    So these laws are unwarranted, and they are unfair. And I 
know that many of us here disagree about the constitutional 
issues around abortion, about the moral issues around it. But I 
would hope that we could agree that State legislatures should 
be transparent in their laws; they should not pretend to be 
about one thing when they are actually about another, because 
to do so undermines our faith in the rule of law. It is unfair, 
it is undemocratic, and it is unconstitutional.
    Senator Blumenthal. Thank you very much. My time has 
expired.
    All of the documents that you referenced will be made a 
part of our record, without objection.
    [The information referred to appears as a submission for 
the record.]
    Senator Blumenthal. Senator Grassley.
    Senator Grassley. Yes, Ms. Tobias, you heard me mention 
Kermit Gosnell in my opening statement. We have the grand jury 
report reconstructing how he had been engaged in an enterprise 
to kill babies, even violate the law, and I think obviously 
violating the trust of his patients.
    State laws were in place in that State, but as the grand 
jury report says, authorities did not do inspections for fear 
it would be seen as ``putting barriers up to women seeking 
abortions.''
    So my question: Wouldn't this particular piece of 
legislation make it easier for these types of individuals to 
continue to operate with impunity?
    Ms. Tobias. This legislation would make it easier for them 
to operate. The law actually says--this legislation actually 
says that if a provision would single out abortion, it would be 
invalid, or if it would impede access to abortion. And one of 
the factors to help determine whether or not it impedes access 
to abortion is allowing the abortion provider to determine 
whether or not the new law, any law, would impede his ability 
to render services.
    So, yes, abortionists like Kermit Gosnell would be able to 
continue to practice, to set up shops. Actually we did see that 
many of the State health departments decided, after hearing 
about Gosnell and realizing that they as well as Pennsylvania 
had not done any kind of inspection of the clinics, went in and 
started doing them, and they were finding some horrible 
situations, and some clinics have been shut down because of 
that.
    But this law would say that if a law is specific to 
abortion, it is invalid, or if it would impede access to 
abortion. And then even then, from there it has to go on to 
whether or not the State can prove that it is going to improve 
access for women, health benefits for women, and even then, if 
it would be yes, then is it the narrow means possible? There 
are so many layers set up in this legislation that practically 
any law dealing with abortion or impeding access in any way to 
abortion would be considered invalid.
    Senator Grassley. Dr. Chireau, some States have laws on the 
books that would require providers of abortion to be located 
near a health facility in the event that medical care is 
needed, and that would probably involve the life of a woman. 
Some States also require abortion providers to have admitting 
privileges to hospitals.
    First of all, do you agree with the laws? And then, second, 
could you elaborate on why they make sense in your expert 
medical opinion and tradition?
    Dr. Chireau. Yes, thank you for the question. So all too 
often--and this has been my experience as a practitioner--when 
abortion complications occur, patients are told to present to 
the emergency room. They are not given any documentation. No 
one is told what was done and what the complications were. This 
has happened to me in practice. A patient experienced 
perforation of her uterus during a late abortion, had a very 
complicated hospital course, and I called the abortionist and 
asked, ``Why did you do this? You knew that you perforated her 
at the time.'' And essentially what he told me was that he knew 
that he did it, but that he did not want to send her to the 
emergency room. And I said, ``That is really malpractice. It is 
not appropriate.'' And, again, his response was, ``Well, she 
started moving.'' I said, ``That is your issue. If a patient is 
moving during a procedure, that is your issue. You should be 
performing the procedure in such a way that it is 
comfortable.''
    But to get to--more directly to respond to your question, I 
do believe that physicians should have admitting privileges 
because that is part of the standard of care. If you perform a 
procedure on a patient, if you are caring for a patient, you 
need to be able to followup on the complications of that 
procedure. That is a surgical maxim. As an OB/GYN or a general 
surgeon or whatever surgical specialty you happen to be in, you 
need to take responsibility for that patient, if they have a 
complication, to either admit them to the hospital and care for 
them yourselves or arrange for transfer to the hospital so that 
that patient can be taken care of. Transfer agreements are very 
important because they provide for continuity of care, and this 
is why I believe that physicians (a) need to have admitting 
privileges and (b) need to be located within a hospital so that 
patients can be managed. So there are a couple of issues here.
    Number one, admitting privileges imply a level of 
competence in clinical practice on the part of physicians. If 
physicians cannot obtain admitting privileges, there are 
reasons why, and that is why peer review is generally the rule 
when patients are applying for privileges. When physicians 
cannot get privileges, it is most often because there are 
issues of competence; they have a trail in their background of 
malpractice events that causes their peers at the hospital to 
say this person is not someone that we want to be on the 
medical staff.
    Hospital credentialing protects patients. Hospital 
credentialing requires that a physician has demonstrated 
competence in doing specific procedures and that they are not 
running from medical boards or running from adverse actions on 
behalf of their licenses.
    Physician-to-physician communications improve the process 
of care. One of the major problems with morbidity and mortality 
in any surgical specialty, medical specialty, is the hand-off. 
It is like a baton hand-off in a race. If you fumble the hand-
off, you lose the race. If you fumble the hand-off in medicine, 
patients are injured.
    Admitting privileges allow for discipline. If physicians 
are practicing outside the scope of practice, if their skills 
begin to deteriorate after time, admitting privileges provide 
for a regulatory framework where physicians who are in trouble 
or causing problems with patients can be disciplined. And this 
is one of the reasons why I think many people in the abortion 
industry oppose credentialing, because it exposes the fact if 
they are not competent, if they have had excessive numbers of 
complications, if they have a trail of injured patients and 
lawsuits, this is going to be exposed. And then, finally, I 
think that it establishes the fact that if you cannot get 
privileges, you cannot meet the standards for medical practice.
    Finally, an important issue is that being on a hospital 
staff or being on a medical--part of a medical society implies 
that you are part of the medical community. If you are outside 
of that medical community, then clearly something is wrong; 
there is some issue going on.
    I hope I have answered your question.
    Ms. Tobias. Senator Grassley, excuse me. I have an article 
by Melinda Henneberger that talks about what happens when the 
abortion industry is allowed to regulate itself. I would like 
to request that this be added into the permanent record.
    Senator Blumenthal. Without objection.
    [The article referred to appears as a submission for the 
record.]
    Senator Blumenthal. And Senator Grassley has some documents 
he would like to enter.
    Senator Grassley. Yes, I have 15 different--but I would 
just like to mention five: Concerned Women of America, 
Legislative Action Committee, a group of 30 female State 
legislators across the country, the Association of American 
Physician Surgeons, the American Association of Pro-Life 
Obstetricians and Gynecologists, and, last, several OB/GYN 
physicians, including John Thorpe, North Carolina; Steven 
Calvin, Minnesota; and Byron Calhoun of West Virginia.
    Thank you.
    Senator Blumenthal. Thank you. All those documents will be 
made a part of the record, without objection.
    [The information referred to appears as a submission for 
the record.]
    Senator Blumenthal. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    I represent a State, Hawaii, that has been a leader in 
protecting women's health and safety. And, in fact, in 1970, we 
were, I believe, the first in the country to decriminalize 
abortion, a woman's right to choose, and, therefore, protecting 
a woman's right to choose.
    And I also want to mention by background that the State 
senator who led the charge to provide women in Hawaii the right 
to choose was a practicing Catholic, and the Governor of the 
State of Hawaii, who allowed this bill, this very important 
bill, to become law to protect a woman's right to make that 
choice, was a practicing Catholic who went to Mass every single 
day. We in Hawaii understand the separation of church versus 
state.
    Now, I do agree that abortion is a different procedure from 
other medical procedures because its foundation is a 
constitutional right. So in my view, there should be a high 
burden on laws that limit or abridge such a constitutional 
right.
    We have heard a lot of testimony from our panel members, so 
I wanted to ask Ms. Northup: Because the right to make this 
kind of a choice is based on a constitutional right, do you 
think that anti-choice laws should be based on medical 
necessity?
    Ms. Northup. Absolutely, and I want to just say again all 
that this bill is about is being sure that women's critical 
access to reproductive health care, including abortion 
services--and as I said in my testimony, that is an issue for 
one in three women in the United States. That is women in every 
State, every congressional district, every city, and every 
town, and her health care is important to her.
    But this bill is about making sure that because State 
legislatures cannot just blatantly ban abortion, which is the 
desire of some people who sit in them, and some States have 
certainly been pushing that envelope. North Dakota has banned 
abortion at essentially 6 weeks, and that is now in the courts. 
Of course, it has been enjoined because it is blatantly 
unconstitutional. The State in its responsive briefs in the 
case said they basically thought Roe v. Wade should be 
overturned. So you have that battle going on.
    But you also have this, you know, underhanded attempt to do 
what they cannot do by the front door by the back door. And so 
it is important that you make sure that regulation of abortion 
is not just about singling out abortion providers, but is 
actually based on good medical practice and scientific 
evidence.
    So the response to even Dr. Chireau's statement is, look, 
if outpatient doctors who are doing, you know, outpatient 
surgeries need to have admitting privileges, that is fine. You 
know, let that be the medical standard that is applied across 
the board. No objection to that. This bill has nothing to say 
to that----
    Senator Hirono. I do not mean to cut you off, Ms. Northup, 
but I do have a question for Dr. Parker--my time is limited.
    Dr. Parker, you provide abortion services in Mississippi 
even if you do not even live there. I understand that you were 
denied hospital privileges in Mississippi. Is that correct?
    Dr. Parker. Great to see you again, Senator.
    Senator Hirono. Aloha.
    Dr. Parker. As you know, I used to live in Hawaii and 
enjoyed serving under your leadership.
    With regard to my decision to travel to Mississippi to 
provide abortion care, it is in part in response to the fact 
that well over 85 percent live in a county where there is no 
abortion provider, and so as I said earlier, my decision to go 
there was based on the fact that if nobody else will go, who is 
going to go?
    Senator Hirono. Yes, I understand.
    Dr. Parker. When I made that decision, the regulations 
changed in the State of Mississippi to require hospital 
privileges. I made an effort to apply to all of the hospitals 
in the given area, and many of the hospitals declined to 
evaluate my application. So why they chose to do that I am not 
sure, but in order to meet the law, I was about to--I was 
unable to do so because there were hospitals who simply 
declined to evaluate my credentials. I am not sure why they did 
that.
    Senator Hirono. I think your experience just points out how 
difficult these laws make it for women in certain States to 
have access to certain kinds of health care services.
    Ms. Northup, I would imagine that these kinds of 
restrictions would disproportionately impact certain 
populations such as low-income women, women of color, and 
immigrant women. Would that be the case?
    Ms. Northup. That is absolutely the case, and I gave the 
example in my testimony that in the Rio Grande Valley, which is 
one of the poorest areas in the Nation, the clinic in McAllen, 
Texas, that had been providing good care for a long time to 
those residents had to close. And, again, it was under those 
circumstances where the doctors were not allowed to get their 
privileges.
    Senator Hirono. Thank you. I just have one question for Ms. 
Tobias. Do you believe that Roe v. Wade should be overturned?
    Ms. Tobias. Yes, I believe----
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Ms. Tobias. The answer is yes. I believe unborn children 
should be protected.
    Senator Blumenthal. Thank you.
    Senator Graham.
    Senator Graham. Thank you very much, Mr. Chairman. I want 
to thank you for having the hearing because I think it is an 
important topic, and I would like to join with Ms. Tobias' 
recommendation that we have a hearing on my bill, which is the 
Pain-Capable Unborn Child Protection Act, S. 1670, and have a 
joint vote on the Senate floor and see where everybody falls 
out on it, because it is a subject worthy of debate.
    Let us see if we can find some common ground here about how 
these laws work. Ms. Tobias, is it your understanding that S. 
1670 would prevent a ban on third trimester abortions that 
protect--with exceptions for the life of the mother and rape 
and incest?
    Ms. Tobias. S. 1670?
    Senator Graham. Excuse me. The other one, S. 1696.
    Ms. Tobias. The one today?
    Senator Graham. Yes, ma'am. I am sorry.
    Ms. Tobias. Yes, this bill would limit--would prevent a ban 
on abortion in the last trimester. It would prevent----
    Senator Graham. Could you--Ms. Northup, do you agree with 
that?
    Ms. Northup. The bill has provisions that track the 
constitutional standard that do say that post-viability there 
needs to be an exception for a woman's life and health, as the 
Supreme Court has said.
    Senator Graham. So could a State pass a law that banned 
abortion in the last trimester except for life of the mother 
and rape and incest? Your answer would be no?
    Ms. Northup. The standard would have to be the one the 
Supreme Court has recognized.
    Senator Graham. What do you say, Ms. Tobias?
    Ms. Tobias. Well, I think probably one of the best examples 
would be when the sponsor of the bill, Chairman Blumenthal, was 
asked if this bill would ban abortions. It talks about life or 
health, and he said that the health exception makes no 
distinction between physical or psychological health. So it 
would be very difficult--it would be impossible under this bill 
to ban abortions for health if psychology and psychological 
health is going to be comparable.
    Senator Graham. Thank you. There are 13 States that ban 
elective abortions after 20 weeks except in the case of rape, 
incest, and the life of the mother. Would this bill strike 
those laws down?
    Ms. Tobias. Yes, it would.
    Senator Graham. Do you agree with that, Ms. Northup?
    Ms. Northup. Like the Ninth Circuit did with Arizona's 20-
week ban, yes, it would be unconstitutional, and this bill 
tracks the U.S. Constitution standards.
    Senator Graham. Thank you. States that have waiting 
periods, requiring a waiting period before the abortion is 
performed, would this bill strike that down?
    Ms. Tobias. Yes, this bill would say that if you impede 
access to abortion in any way, it would be struck down.
    Senator Grassley. Do you agree with that?
    Ms. Northup. I do not. It depends on what the court would 
look at. So, again, as we were talking about before----
    Senator Graham. So you do not know how the bill works?
    Ms. Northup. Oh, yes, I do. It is that the first question 
would be, is this type of waiting period something that is also 
imposed on similar----
    Senator Graham. Well, the ones that are on the books, the 
ones that you are familiar with, can you name one State law 
with a waiting period that you think would survive?
    Ms. Northup. Well, I would say that I think it is important 
that we look at the factors in the bill. Does it apply to 
similar services?
    Senator Graham. Can you name one State with a waiting 
period requirement that you think would survive scrutiny under 
this bill?
    Ms. Northup. Well, if it were able to say that it did not 
significantly impede access to services, if it was a waiting 
period that is not a particularly long one----
    Senator Graham. So you cannot give an example.
    Ms. Tobias, does this bill ban States' requirements that a 
person can exercise their conscience about not performing an 
abortion? There are laws on the books that say that, right?
    Ms. Tobias. Yes. If someone says that, according to their 
conscience, they cannot take the life of an unborn child, that 
would be impeding or reducing access to abortion, which would 
be invalid----
    Senator Graham. Would this legislation invalidate those 
laws?
    Ms. Tobias. Yes, it would.
    Senator Graham. Do you agree with that, Ms. Northup?
    Ms. Northup. I do not agree. This legislation does not 
address the issue of conscience objection.
    Senator Graham. Should it? Would you accept an amendment 
offered by me to make sure people of conscience do not have to 
do something like this?
    Ms. Northup. Well, I think we have important laws that are 
on the books that respect people's rights of conscience, and 
so----
    Senator Graham. Well, do you--as to this issue, would you 
accept an amendment by me to this bill to exempt conscience?
    Ms. Northup. Well, I am not elected to make those 
decisions.
    Senator Graham. I got you. Fair enough.
    Ms. Northup. I think this bill clearly does not cover that.
    Senator Graham. Fair enough. I think the answer would be 
no.
    So, Dr. Parker, is it standard medical practice for 
physicians operating on a child at 20 weeks to provide 
anesthesia to that child?
    Dr. Parker. Well, Senator, I am not well versed in fetal 
surgery because most surgeries at 20 weeks would have to occur 
in utero.
    Senator Graham. Right, it would. Ms. Chireau, are you 
familiar with what would be the standard of care there?
    Dr. Chireau. Yes, it is, and that is because when fetal 
surgery is done--and I am very well aware of the fetal surgery 
landscape. Initially, when fetal surgery was being done, 
fetuses reacted very strongly to incisions, to placement of 
catheters, so----
    Senator Graham. Is it standard medical practice to provide 
anesthesia when you operate----
    Dr. Chireau. Yes.
    Senator Graham [continuing]. On a baby at 20 weeks?
    Dr. Chireau. Yes.
    Senator Graham. Medical encyclopedias--and I am sorry I am 
running over; I will wrap it up here--encourage parents to talk 
to the baby at 20 weeks. They can hear sounds. They react to 
your voice. They can hear your heartbeat as a mother. They can 
hear your stomach growling, and they can react to loud noises. 
Does that make sense to you, Ms. Chireau?
    Dr. Chireau. Yes, it does.
    Senator Graham. Okay. Has anyone ever been born at 20 weeks 
that survived?
    Dr. Chireau. As far as I am aware, no.
    Dr. Parker. Not to my knowledge.
    Senator Graham. I can show you twins. Thanks.
    Senator Blumenthal. Senator Hatch.
    Senator Hatch. Well, thank you, Mr. Chairman.
    You know, Congress has a few times told the States that 
they had to pass certain legislation, but only as a condition 
of receiving Federal funds of some kind. Now, I am in my 38th 
year here in the U.S. Senate, and on this Committee, and I do 
not recall Congress ever passing a law that prohibited States 
from enacting entire categories of laws simply because Congress 
says so. I do not recall that.
    Can anyone on this panel give me an example of that? And if 
not, why is abortion so unique that Congress has this authority 
in this area but not in any other? Anybody care to take a crack 
at that? I do not see it, personally.
    Well, let me ask a question to you, Ms. Tobias. States have 
been passing laws regarding abortion for almost 200 years. The 
Supreme Court took over in its Roe v. Wade decision, and since 
1973 the United States has had the most permissive abortion 
laws in the world today. But most Americans have always opposed 
most abortions, and the vast majority of Americans support 
reasonable and commonsense abortion regulations. At least that 
has been my experience, and I do not think it is a false 
experience.
    This bill attempts to wipe it all out to eliminate even 
minimal regulations that most Americans support and that the 
Supreme Court has already said are constitutional.
    Now, I opposed this kind of legislation more than 20 years 
ago when I was Ranking Member of what is considered today the 
HELP Committee. This bill would not regulate abortions. It 
would regulate the States telling them what laws they may or 
may not pass.
    How does Congress have the authority to do that?
    Ms. Tobias. Currently the law--other than what the Supreme 
Court will or will not allow--has the State legislatures 
elected by the people setting the laws for their States. I 
think that is actually a very good way to handle this. The 
States have been dealing with the conscience clauses, setting 
up the waiting periods, informed consent provisions, and the 
courts have been allowing these to stand. So it is difficult to 
say that a law that the Court has upheld is unconstitutional. 
So we certainly think that Congress would be overstepping in 
passing a law that would completely override a procedure that 
the Supreme Court has said is different.
    Senator Hatch. This bill would prohibit restricting 
abortions based on the reasons for the abortion. The way I read 
the bill, neither States nor the Federal Government could 
prohibit abortions performed because, for example, a child is a 
girl or because the child has a disability. Is that the way you 
understand it?
    Ms. Tobias. Yes.
    Senator Hatch. Dr. Chireau, this bill sounds like it is 
very deferential to medical judgment and that abortion should 
be treated like any other medical procedure. But under this 
bill, politicians, lawyers, and judges would make final 
decisions on such things such as which medical procedures are 
``comparable,'' which tasks doctors may delegate to other 
personnel, which drugs may be dispensed, which medical services 
may be provided through telemedicine, how many visits to a 
medical facility are necessary, the relative safety of abortion 
services, which methods advance the safety of abortion or the 
health of women more or less than others.
    Now, from your perspective as a doctor, doesn't this bill 
actually compromise the practice of medicine?
    Dr. Chireau. I think it does compromise the practice of 
medicine, and I believe that is on two levels: number one, for 
the reasons that you have enumerated; number two, because I do 
believe that current legislation in the States to set clinic--
specify access to clinics and so on and so forth is protective 
to patients. So I think that it is doubly a problem, number 
one, for those reasons that you have listed and also because 
the regulations that have been enacted were enacted in an 
attempt to prevent abortion providers from being exempted from 
the same sorts of regulatory frameworks that other medical 
practitioners have to operate within.
    Senator Hatch. This bill would prohibit restrictions on 
abortions that are not also imposed on what it calls 
``medically comparable procedures.'' Now, that is just one of 
the key terms in this bill that are brand new and completely 
undefined. But this bill makes a pretty clear statement that 
there is nothing unique about abortion, nothing that makes it 
different from any other medical procedure. And that, of 
course, is not true.
    Dr. Chireau. That is correct.
    Senator Hatch. Whether you are pro-abortion or anti-
abortion. Even in Roe v. Wade, the Supreme Court said that the 
State has unique reasons for restricting abortion because it 
involves what the Court called ``potential human life.'' And in 
Harris v. McRae, the Supreme Court in 1980 held that the 
abortion ``is inherently different from other medical 
procedures because no other procedure involves the purposeful 
termination of a potential life.''
    I do not think that we need the Supreme Court to tell us 
that, but there it is. Doesn't that settle this question and 
completely undercut the entire theory behind this bill?
    Dr. Chireau. Yes, I believe that it does, and I think that 
the issue of comparable procedures is really false. I believe 
that abortion is a unique procedure. As you have said, it is 
the only procedure that terminates a human life.
    In addition, from the technical perspective, an abortion is 
a very different procedure from, say, completing a miscarriage 
or doing a dilation and curettage on an non-pregnant woman.
    Senator Hatch. Mr. Chairman, could I ask just a couple more 
questions?
    Senator Blumenthal. Sure.
    Senator Hatch. I know that there are just two of us here.
    Senator Blumenthal. We are approaching a vote, and Senator 
Cruz is here, so----
    Senator Hatch. Oh, I did not see Senator----
    Senator Cruz. Take all the time you----
    Senator Hatch. Well, let me just ask one more.
    The Supreme Court created one set of rules in 1973 for 
evaluating the constitutionality of abortion regulations. Then 
the Court changed the rules in 1992. Now, this bill creates yet 
another standard: prohibiting regulations that a State cannot 
show by clear and convincing evidence significantly advanced 
the safety of abortions.
    Now, it is bad enough that the Supreme Court sometimes does 
Congress' job, but here is Congress attempting to turn around 
and do the Court's job.
    But it gets worse. This bill applies its rules and 
regulations to all State and Federal statutes, to all State and 
Federal regulations in the past, in the present, and in the 
future. Does this mean, for example, that States would be 
required to repeal any laws or regulations already on the books 
that do meet these new rules?
    Dr. Chireau. Yes, sir, I think that that is a very 
important point. I think that essentially this law guts States' 
rights with respect to abortion. It creates abortion as a 
special protected class of procedure and abortion providers as 
a special protected class of providers.
    Senator Hatch. Well, I cannot imagine why any State 
legislature would support this, no matter their position on 
abortion. Now, I am having real trouble here with this 
approach, but at least I wanted to raise these issues because I 
think they are important issues.
    Thank you, Mr. Chairman.
    Senator Blumenthal. Thank you.
    Senator Hatch. Sorry to impose on Senator Lee and Senator 
Cruz.
    Senator Blumenthal. Senator Cruz, Senator Lee was here 
earlier, so I am going to call on him at this point. Thank you. 
Thanks, Senator Hatch.
    Senator Lee. Thank you, Mr. Chairman. Thanks to all of you 
for joining us today.
    There was a time when the humanity of an unborn child could 
plausibly be dismissed as philosophical conjecture. Today we 
know it is a biologic fact. For every excited announcement, 
every baby shower, every ultrasound image posted on Facebook, 
all of this attests to this scientifically confirmed, very deep 
human truth. The only difference is that unborn boys and girls 
are small and they are helpless and they are mute. They cannot 
speak for themselves. They rely on strangers. They rely on us 
to speak for them.
    I believe in the innate dignity of every human life, and I 
believe every human society is rightly judged by how it treats 
its most vulnerable members--the aged, the poor, the sick, the 
disabled, the abused, the homeless, the widowed, and the 
orphaned, the pregnant mother in crisis, and, of course, the 
unborn child in the womb.
    Neither our society at large nor our laws have to pit the 
vulnerable one against another. We can choose instead, we have 
the power to choose instead to welcome and to love and to 
protect all, even and especially the weakest among us. Making 
that choice presents an enormous challenge to all of us as 
policymakers, as citizens, as neighbors and friends, as parents 
and children ourselves.
    But the challenge of life is, after all, why we are here: 
to use our strength in defense of the weak. We should choose to 
embrace that challenge and to do so with love and with open 
arms. We can choose life, and when this debate finally 1 day 
ends, I think we will. I think we will choose life.
    So let me start with a couple of questions for Ms. Tobias, 
if I might. At a rudimentary level, does S. 1696 even consider 
the possibility that there might be more than one life involved 
and at stake when a woman seeks an abortion?
    Ms. Tobias. No, it does not.
    Senator Lee. And yet this proposed legislation would have 
far-reaching effects, potentially not just for one life but for 
two, in any given instance. Isn't that right?
    Ms. Tobias. For every abortion that is performed, there is 
a human life that is destroyed. This bill does not mention it, 
treating the child as a tumor instead.
    Senator Lee. So in that respect, it is very different than 
other legislation that might just affect one person, might just 
affect the health of one person. This one involves the 
potential in each instance for the destruction of one person's 
life, its complete termination.
    Ms. Tobias. Yes.
    Senator Lee. Many medical experts and health providers have 
strong moral and ethical concerns, as they have every right to 
have, with providing abortions. And yet this bill, as I 
understand it, would have the Federal Government telling the 
States that they, the States, may not protect the rights of 
conscience for medical providers. My own State, for example, 
guarantees the right of a medical provider to refuse to 
participate, admit, or treat for an abortion based on moral or 
based on religious grounds. These laws matter. I can point to 
several instances in which, absent such laws, university or 
hospital policies would have forced medical personnel to 
perform abortions, notwithstanding and against serious moral or 
religious objections.
    So, Ms. Tobias, let me just ask, what role do freedom-of-
conscience laws currently play? And what effect would this bill 
have on those laws? And what concerns should we have and would 
you have with such an outcome?
    Ms. Tobias. A lot of people go into the medical field 
because they want to take care of people. They go into 
obstetrics and gynecology, they become delivery room nurses 
because they want to take care of pregnant women and babies, 
and they do not want to kill unborn children. If they are told 
that they have no choice, that they will have to perform or 
participate in the performance of an abortion procedure, they 
will either be doing something that is very strongly, deeply 
offensive to them, or they will leave the field, which means we 
would have a lot of wonderful doctors and nurses who could be 
helping pregnant women and their children, finding something 
else completely to do. I think that would actually be a huge 
detriment to the medical community. This bill would strike down 
conscience laws because those laws would impede or reduce 
access to abortion.
    Senator Lee. Thank you. Thank you for your answers.
    I see my time has expired. Thank you, Mr. Chairman.
    Senator Blumenthal. Thank you.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman. I want to thank each 
of the witnesses for coming and joining us today.
    The legislation this Committee is considering is extreme 
legislation. It is legislation designed to eliminate reasonable 
restrictions on abortion that States across this country have 
put in place. It is legislation designed to force a radical 
view from Democrats in the Senate that abortion should be 
universally available, common, without limit, and paid for by 
the taxpayer.
    That is an extreme and radical view. It is a view shared by 
a tiny percentage of Americans, although a very high percentage 
of activists in the Democratic Party, who fund and provide 
manpower politically. And it is also a very real manifestation 
of a war on women given the enormous health consequences that 
unlimited abortion has had, damaging the health and sometimes 
even the lives of women.
    I have with me 317 statements from Texas women who have 
been hurt by abortion, along with letters from Texans opposing 
this bill, along with letters from pro-life doctors, nurses, 
lawmakers across the United States that, with the Chairman's 
permission, I would like to have entered into the record.
    Senator Blumenthal. Without objection.
    [The information referred to appears as a submission for 
the record.]
    Senator Cruz. A number of the restrictions that this 
legislation would invalidate are restrictions, commonsense 
restrictions, that the vast majority of Americans support, for 
example, restrictions on late-term abortions. The overwhelming 
majority of Texans do not want to see late-term abortions 
performed except in circumstances when necessary to save the 
life of the mother. And yet the United States' laws and the law 
that would be reflected in this bill is extreme by any measure.
    Today the United States is one of seven countries in the 
world that permits abortion after 20 weeks. We are in such 
distinguished company as China, North Korea, and Vietnam--those 
known paragons of human rights.
    If you look at some other countries across the world, in 
France abortion is prohibited after 12 weeks. In Italy abortion 
is prohibited after 12\1/2\ weeks. In Spain abortion is 
prohibited after the first trimester. In Portugal abortion is 
prohibited after 10 weeks. This is the norm across the world, 
and yet this legislation would say that the 23 States who have 
enacted limits on late-term abortion, their laws would be set 
aside.
    A question I would ask Dr. Parker: Is it your view that 
these nations--France, Italy, Spain, Portugal--that they are 
somehow extreme or manifest a hostility to the rights of women?
    Dr. Parker. Senator Cruz, thank you for your question. I am 
not an international human relations expert. I can tell you 
that when abortion is legal and safe that the known mortality 
related to women taking desperate measures when abortion is 
illegal is greatly minimized, as demonstrated by what happened 
in this country after 1973.
    I do know that internationally in a country like Ghana, 
where I have traveled, whereas they have made great strides 
toward reducing their maternal death rate by having better 
access to maternal care, despite the fact that abortion is 
legal, because it is so heavily stigmatized when women do not 
access that care, that--the major cause of maternal mortality 
in Ghana is related to unsafe abortion.
    So if access to legal and safe service being a reality for 
women with an unplanned or wanted pregnancy or a lethally 
flawed pregnancy reflects human rights values, then countries 
that restrict that, we would have to question their commitment 
to the humanity and safety of the women in their populations.
    Senator Cruz. Well, thank you for your views, Dr. Parker. I 
would note that the suggestion that somehow France or Italy or 
Spain or Portugal or much of the civilized world is somehow 
insensitive to the rights of women is rather extraordinary. And 
the idea that America would rush out to embrace China and North 
Korea for the standard on human rights is chilling.
    I would note that this law would also set aside State laws 
prohibiting taxpayer-funded abortion. Thirty-two States have 
laws to do that. This law would also imperil State laws 
providing for parental notification if your child needs an 
abortion that at a minimum before that serious medical 
treatment that a parent has a right to be notified. Thirty-
eight States have that law, and yet this extreme bill in 
Congress would imperil every one of those laws.
    And, finally, if I may have another 30 seconds to just 
share some of the stories from women in Texas:
    Nona submitted this story. She said, ``I was told I just 
had a blob of tissue by Planned Parenthood after they did my 
pregnancy test and then referred me to a nearby abortion 
clinic. I was not given the option of having a sonogram. I was 
not given the option of hearing my baby's heartbeat. Had I been 
given the opportunity of seeing my baby and hearing the 
heartbeat, I can assure you that I would not have chosen 
abortion. I would have chosen life instead of death. How can 
anyone believe that abortion should be legal after seeing a 
baby living in the womb of its mother on a sonogram and hearing 
the heartbeat of that baby? I felt I was pressured by Planned 
Parenthood because they told me that the best thing I could do 
was have an abortion since I was so young. I was 15 years old 
and still in high school. That abortion ruined any chance of me 
giving birth. As a result, I have had five miscarriages, three 
of them have been tubal pregnancies requiring emergency surgery 
and were very near death experiences. I have suffered from 
bouts of depression and attempted suicide, self-mutilation. My 
experience of emotional trauma after abortion is the same as 
millions of other women and their families.''
    I have 317 statements, each as powerful as that in terms of 
the human consequences of what this legislation would produce.
    Thank you, Mr. Chairman.
    Senator Blumenthal. Thank you.
    Ms. Northup, would this legislation prohibit the use of 
ultrasounds when a patient requests them?
    Ms. Northup. Oh, no, not at all. This law again is just 
very focused on those underhanded type of restrictions that are 
treating abortion not like similarly situated medical practices 
that do not advance health and safety and are harming access to 
services.
    Senator Blumenthal. In essence, it would be irrelevant to 
the instance that Senator Cruz has just described.
    Ms. Northup. Yes, absolutely. It also very explicitly does 
not cover the question of insurance funding. It is not 
addressing that. It would not invalidate those laws. It has 
nothing to do with minors. It specifically says it does not 
address issues about parental consent and notification laws.
    Senator Blumenthal. Dr. Chireau, have you ever performed an 
abortion?
    Dr. Chireau. No, I have not.
    Senator Blumenthal. Dr. Parker, how many abortions have you 
performed?
    Dr. Parker. I do not have the numbers right off, but I can 
tell you that over 20 years of patient care, I have seen 
thousands of women, and some of those women have needed 
abortion care.
    Senator Blumenthal. And in your experience--over how many 
years?
    Dr. Parker. Twenty.
    Senator Blumenthal. Twenty years--has the width of a 
hallway in those clinics where you have performed your medical 
services affected the quality or expertness of those medical 
services?
    Dr. Parker. No, Senator.
    Senator Blumenthal. Has the admitting privileges within 
that State affected the quality or effectiveness of your 
medical services?
    Dr. Parker. Only to the extent that they prevented me from 
providing care to women.
    Senator Blumenthal. They have barred you entirely, but 
admitting privileges are irrelevant to the quality and 
excellence of your medical services because anyone in need of a 
hospital will be admitted to that hospital.
    Dr. Parker. Correct, Senator.
    Senator Blumenthal. And the waiting period, is that 
relevant to the quality or effectiveness of your medical 
services?
    Dr. Parker. The reality, Senator, is that women are 
extremely thoughtful, and most women that I meet, when they 
present to me to be counseled about their options, they have 
been thinking about what they are going to do about their 
pregnancy from the minute that they found they were pregnant. 
So I know women to be extremely thoughtful, and I have not seen 
any woman's ability to make this complex decision enhanced by 
being forced to wait longer than she has already thought about 
it.
    Senator Blumenthal. Thank you.
    Ms. Northup, in response to a number of Senator Graham's 
questions, you essentially said that the limits embodied and 
incorporated in this bill were the constitutional standards. Is 
that correct?
    Ms. Northup. That is correct. For example, most States 
under the Supreme Court's constitutional rulings can ban 
abortion later in pregnancy, and do. And as long as they have 
an exception for women's health and life, those laws are on the 
books now, and they would still be on the books.
    Senator Blumenthal. In effect, this law basically enforces 
the Constitution.
    Ms. Northup. Absolutely enforces every woman's 
constitutional right to make the important decisions for 
herself.
    Senator Blumenthal. And, finally, in those countries--and a 
reference was made to a number of them--where abortion is made 
illegal, is it made safer?
    Ms. Northup. No. Around the world many of the places where 
abortions happen, women are terminating pregnancies where it is 
illegal and it is unsafe. And whether you see this country 
before Roe v. Wade or you look at places in Latin America and 
Sub-Saharan Africa today, when women do not have access to safe 
and legal abortion, they are harmed.
    Senator Blumenthal. You made reference, speaking about the 
State of Texas, to women in Texas going across the border to 
Mexico so that they could buy at a flea market drugs necessary, 
they thought, for abortions because they could not get that 
service in the United States?
    Ms. Northup. Yes. As the clinics have been shrinking in 
Texas because of laws that--again, I commend the American 
Medical Association's brief in the Fifth Circuit talking about 
the medically unnecessary laws that have been passed in Texas. 
That is the AMA, a very mainstream medical opinion. Because it 
is taking clinics from three dozen, cut by a third, and it will 
be down to less than ten if it is allowed to go into effect, 
women have been going over the border in Mexico. They have been 
buying medication on the black market. They have been trying to 
self-abort. And the situation is going to be worse. Women are 
hurt when they cannot get the medical care that they need.
    Senator Blumenthal. Ms. Taylor, in your experience in 
Wisconsin, have the restrictions on women's access to 
reproductive rights made abortions safer?
    Ms. Taylor. No, Mr. Chairman, they have not.
    Senator Blumenthal. Have they created confusion, in fact, 
discouraged women from seeking to exercise their right?
    Ms. Taylor. Absolutely, and they have sent women out of 
State.
    Senator Blumenthal. Thank you.
    We are voting, so I apologize. I am going to have to close 
the hearing. My colleagues are on their way there. I want to 
enter into the record, without objection, various statements, 
including Planned Parenthood in Southern New England, a 
statement that has been submitted for the record.
    As is our custom, our record will remain open for 1 week in 
case my colleagues have additional questions, and I again 
really want to thank every one of our witnesses for 
participating in this very, very important hearing. Thank you 
all for attending.
    [Whereupon, at 12:08 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record
              
              
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
              
 
                 Additional Submissions for the Record

A list of material and links can be found below for Submissions for the 
 Record not printed due to voluminous nature, previously printed by an 
 agency of the Federal Government, or other criteria determined by the 
                               Committee:

    Case files documented August 19, 2011:
        http://www.cruz.senate.gov/files/documents/20141218_Stories.pdf

                                 [all]
</pre></body></html>
